<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2008 

                              ----------                              


                         TUESDAY, MAY 22, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Craig, Stevens, Cochran, 
Gregg, Allard, and Alexander.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF HON. MARK REY, UNDER SECRETARY
ACCOMPANIED BY LENISE LAGO, BUDGET DIRECTOR

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. The meeting of the Interior 
Appropriations Subcommittee will come to order. I'd like to 
thank you for attending this hearing on the President's budget 
request for the U.S. Forest Service.
    I'd like to welcome Mark Rey, the Under Secretary for 
Natural Resources and Environment at the Department of 
Agriculture. Under Secretary Rey is accompanied by Lenise Lago, 
the Budget Director for the Forest Service.
    I just want to point out to you that the Chief, Gail 
Kimbell, couldn't be with us today because she's traveled to my 
State, California, to attend the release of the report on last 
year's deadly Esperanza Fire, which took the lives of five 
firefighters in California.
    I happened to go to their funerals, and it was just a 
terrible, terrible thing. I'm very sorry Chief Kimbell could 
not be with us today, but I'm very pleased that she's focusing 
her attention on ensuring the health and safety of our 
firefighters.
    Mr. Rey, as I think you know, approximately 20 percent of 
all the land in California is national forest lands, so this 
account is particularly important to me.
    The President has requested $4.1 billion for the Forest 
Service in fiscal year 2008. This request reduces the agency's 
budget by $200 million from the 2007 enacted level. That's a 
4.6 percent cut.
    These cuts will have a huge impact on the 193 million acres 
of forest and grasslands across the country. As ranking member, 
Senator Craig knows, and Senator Cochran and Senator Stevens, 
we've all tried to work together to create a situation where we 
could both manage our forests and fight our fires in a much 
more effective manner.
    So I'm worried that many of these cuts are being driven by 
the skyrocketing costs of fighting wildfires, and unless 
something changes, the problem's only going to get worse. 
Funding for the 10-year average for fire suppression has 
increased by 23 percent over last year, for a total of $911 
million.
    That means that fire programs now account for 45 percent of 
the Forest Service budget. That's a doubling from 2000--I think 
this is good news, actually--when fire programs accounted for 
21 percent of Forest Service spending.
    I'm concerned, though, that if we continue at this pace, 
the Forest Service will turn into the Nation's fire department 
instead of a land management agency. I understand the choices, 
and I appreciate them, however.
    To pay for these increases, the administration is proposing 
steep program reductions, including $108 million in cuts to the 
operating budgets of national forests, an 8 percent reduction, 
and $78 million in cuts to grants and assistance for State and 
private landowners. That's another 28 percent cut.
    Funding for hazardous fuels reduction is also reduced from 
$301 million to $292 million. As you know, fuels reduction is a 
big public safety issue, since nearly 7 million people in my 
State alone live in the wildland-urban interface near southern 
California forests.
    I should also point out that there has never been more 
drought in southern California than there is today, so this 
year's fire season is very worrisome.
    I'm also concerned about the cuts to the Fire Preparedness 
Program. The Service's budget includes $97 million in cuts for 
training, equipment, and support staff. That's a 15 percent 
reduction. We've seen recently catastrophic wildfire already.
    Despite these enormous budget holes, I'd really like to 
commend the administration for proposing $124 million in 
funding for law enforcement on national forests to help 
eradicate drug production and trafficking. That's an 8 percent 
increase over the 2007 level.
    Mexican drug cartels, I'm sorry to say, have discovered 
that it's easier to grow marijuana on public land than to try 
and smuggle it across the border. In 2006, Federal authorities 
seized some 3 million marijuana plants on public land, worth 
between $10 and $15 billion. Half of that harvest, I'm sorry 
and ashamed to say, came from my State.
    I'm told that nationwide, 83 percent of the problem on 
public land is centered on national forests. Clearly, this 
problem is reaching epidemic proportions, and we should address 
it squarely.
    So I'd like to commend the Forest Service for making 
additional resources available for this effort, despite their 
lean budget.
    I was also pleased to add an additional $12 million to the 
Iraq supplemental that would help the Service fund additional 
hiring and training that's central to solving this problem.
    It's clear from looking at the details of this budget that 
this subcommittee has its work cut out for it, but I'm really 
very pleased to be able to work with my distinguished ranking 
member, Senator Craig. We've worked together before on these 
issues, and I think we see things very similarly.
    So I'd like to offer him now the time, as ranking member.

                OPENING STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Well, Madam Chairman, thank you very much, 
and let me welcome Under Secretary of Natural Resources and 
Environment, Mark Rey, to the subcommittee today.
    As we look at the agency's proposed 2008 budget, what is 
inescapable is that the Forest Service seems to be turning into 
the Fire Service. Now, Madam Chairman, it isn't that you or I 
compared notes prior to this, but it's obvious that we are 
reacting in a similar fashion to the proposed budget.
    As recently as 2000, the percentage of the budget devoted 
to fire management activities was 21 percent. Now, it is 45 
percent. I understand that part of this is because we made a 
policy decision to increase the budget for fire programs to 
fund the national fire plan in the wake of the massive 2000 
fires.
    But that doesn't explain the skyrocketing expenditures on 
fire suppression that we've seen over the last few years. The 
budget for fire suppression has grown from $418 million as 
recently as 2003 to a proposal for fiscal year 2008 of $911 
million. That's a 118 percent increase in just 5 years.
    Mark, all the more disturbing is that over the same period 
of time, we have spent roughly $2.5 billion in fuel reduction 
between the Forest Service and the Department of the Interior. 
I believe all of us had thought this investment would start to 
bring some suppression costs down. That is just not happening.
    From what I see, virtually every program in the budget is 
being cut besides fire suppression in order to pay for these 
skyrocketing costs. The size of the pie stays the same, but 
fire is becoming an even larger slice of that pie. Even 
programs within the fire account are not immune from cuts. This 
budget proposes to cut preparedness by over $95 million.
    Coming off the worst fire season on record, I agree with 
the chairman. It is dry in California. It appears to be getting 
dry in Idaho and in the Rocky Mountain West. To me, this will 
lower the agency's readiness capacity and lead to more 
catastrophic fires.
    Perhaps the most concrete way to see what is proposed in 
this request for the Forest Service is to look at the number of 
people that will lose their jobs. If we were to accept this 
budget without change, it would mean over 2,100 fewer employees 
at the Forest Service level.
    I spend a lot of time with the Forest Service in Idaho at 
the district level and across the forest. I know they are 
dramatically stretched today just to do maintenance--
reasonable, environmentally sound, and appropriate 
maintenance--let alone fight the fires.
    I also find it ironic that at the Department of the 
Interior, which houses three other public land agencies, their 
fiscal year 2008 budget would add over 2,000 people, roughly 
the same amount that will be cut from this budget.
    I simply can't see the equity in that, particularly when so 
many rural communities depend on the Forest Service to sustain 
their fragile economies through timber harvest, recreation, 
grazing, and a host of other important programs that do take 
maintenance, and take personnel on the ground.
    So I thank you, Mark, for being here today. I look forward 
to hearing from you in your testimony as you attempt to justify 
this budget.
    Senator Feinstein. Well, that's a challenge.
    Senator Craig. Thank you, Madam Chairman.
    Senator Feinstein. Senator Cochran, would you like to make 
a statement?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chairman, thank you very much. I'm 
pleased to join you and Senator Craig in welcoming our 
witnesses today to review their budget requests for the Forest 
Service.
    In our State of Mississippi, we have about 70 percent, I 
guess, of forest lands that are privately owned, and much of 
that land borders public forest land. So it's important to us 
that the Forest Service continue its research programs to 
develop management and treatment methods that will help keep 
our national forests healthy and protect forest lands that are 
owned by individuals.
    I want to commend also, just for your information, the 
staff of the Center for Bottomland Hardwoods Research, which is 
located at Stoneville, Mississippi. I was just there, and I 
understand that they are engaged in some very important work on 
hardwood genetics and stand management practices.
    I hope that the funding for that activity will be supported 
by the administration, because the success of hardwood for 
reforestation efforts throughout the Southeast are very 
important.
    I know you've also begun a review of a policy regarding 
all-terrain vehicle use in national forests in Mississippi. 
Some of my constituents have expressed concerns that this might 
unfairly affect those who have disabilities or those who are 
elderly, and prevent them from using all-terrain vehicles in 
the national forest area, so I hope that'll be taken into 
account as you review any changes to those activities.

                           PREPARED STATEMENT

    We appreciate your good stewardship and your leadership, 
and we look forward to working with you in this new fiscal 
year. Thank you.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Madam Chairman, I am pleased to join you in welcoming Under 
Secretary Mark Rey to the committee this morning. We appreciate very 
much his hard work to ensure that our National Forest system is 
maintained in a way to guarantee the appropriate use of our Nation's 
forest resources as well as to protect the health of our forests.
    An important part of forest health in the Southeast is forest land 
research and treatment of insects and disease. In my State, about 70 
percent of the forest land is privately owned, and much of this land 
borders public forest lands.
    It is very important for the Forest Service to continue its 
research programs and develop management and treatment methods that 
will protect Federal lands. I especially want to commend the staff at 
the Center for Bottomland Hardwoods Research at Stoneville, 
Mississippi, for their work on hardwood genetics and hardwood stand 
management practices. This research has been an important part of the 
success of hardwood reforestation efforts throughout the Southeast.
    It is my understanding that the Forest Service has begun a study to 
amend the current policy of all terrain vehicles use on National Forest 
lands. My constituents have expressed concern that the proposed changes 
would not take into consideration the use of these vehicles by the 
elderly and handicapped. I hope that the Forest Service will review 
these issues as policy is developed.
    Madam Chairman, thank you very much for holding this hearing and I 
look forward to the testimony.

    Senator Feinstein. Thank you. Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Just a short comment, Madam Chair. I'm 
disturbed as I look at this budget to realize how far the 
Forest Service has come from being a manager of harvesting 
timber to a fire department, as my two colleagues have said.
    When I came to the Senate, the Forest Service managed the 
harvest of 1.5 billion board feet a year from Alaska. Last 
year, it was, what, 140 million.
    We look at this budget now and I think State and Private 
Forestry in Alaska is reduced. National Forest System budget in 
Alaska is reduced. Wildland Fire Management in Alaska is 
reduced. Capital Improvement and Maintenance in Alaska is 
reduced.
    We have two of the largest forests in the United States, 
and they're basically being neglected, and they're being 
neglected from the pressures you face from the extremists, who 
somehow or other believe they should be turned into national 
parks.
    I just wonder when we're going to wake up and realize that 
we're coming to the point where we have two climaxed forests 
now in Alaska because they've been ignored, and one of these 
days, they're going to burn, too, despite our weather. They're 
normally fairly damp places, but now, they're climaxed.
    Deer are getting smaller. All the wildlife is getting 
fewer. We're losing even some of the birds, because of the lack 
of the vitality of these forests. It can only be restored by 
management. So I'm very disturbed about it, really, and I don't 
know what to do about it. Thank you very much.

                 MEXICAN CARTELS AND MARIJUANA GROWING

    Senator Feinstein. Thank you very much, Senator Stevens. 
Before calling on Senator Allard, I was just handed an article 
entitled ``A Budding Invasion: The Mexican Cartels Have Made 
Marijuana a Cash Crop Worth Billions of Dollars,'' and it goes 
on and describes some of this.
    I'm going to put it in the record, but I'd like to just 
pass it down and ask each one of you to take a look at it.
    [The information follows:]

                   [From Men's Vogue, February 2007]

                           A Budding Invasion
                           (By James Verini)
 the mexican cartels have made marijuana a cash crop worth billions of 
  dollars by infiltrating america's national forests and turning them 
        into vast pot plantations. can anyone halt the harvest?
    The Shasta-Trinity National Forest in Northern California covers 
over two million acres, stretching roughly from the former lumber town 
of Redding north to near the Oregon border, and from close to the 
Pacific Ocean east toward Nevada. Like most of the public land in this 
part of the country, Shasta is beloved of campers and hunters, a 
seemingly endless expanse of pine, fir, and oak trees, glistening 
lakes, and snowy mountaintops. It is the kind of place where a visitor 
resolves to write a check to the Sierra Club immediately upon returning 
home. It is also a new front in something else seemingly endless--the 
drug wars. Which is why I found myself, last August, knee-deep in 
Shasta's undergrowth, bushwhacking my way up a hillside with a group of 
Forest Service agents. Clad in dark camouflage and Kevlar vests, they 
carried M-16 rifles and hip-holstered pistols.
    They were not being overzealous. In 2006, authorities here seized 
over $700 million worth of illicit marijuana from gardens--the 
euphemistic name generally given to pot farms--planted in Shasta, most 
of it by trained, and heavily armed, Mexican growers. As an occasional 
hiker myself, it was not hard for me to imagine being out on a trail 
(we were not far from one now, and only about a mile from the nearest 
road), my gravest concern a twisted ankle or the odd grizzly, only to 
stumble upon a garden and find myself facing a gun barrel. Things could 
go bad fast. They have before. In 2000, a grower shot a hiker and his 
young son. The year before, growers kidnapped a Bureau of Land 
Management botanist. In 2005, Forest Service agent Matt Knudson, 
walking a few yards ahead of me in Shasta, was on a raid near Los 
Angeles when a grower took two blasts at an agent. ``Come harvest 
season they start bringing in more guns,'' Knudson explained. He 
regularly recovers shotguns, AK-47s, even MAC-10s and Uzis.
    Late summer--harvest season was beginning. After an hour of hiking, 
the air grew heavy with a familiar scent, and just as my mind was 
transported back to my college dorm room, we arrived at our quarry: 
Cannabis plants, many thousands of them sprouting five and six feet 
tall from the forest floor, came into focus, their thin, serrated 
leaves and hirsute emerald buds everywhere. This was no Grateful Dead 
concert parking-lot piddle, mind you; these specimens were the size of 
tropical fruit.
    The growers had fled in a hurry the night before, it seemed, 
leaving their camp looking like a scene from Pompeii. Spread on a crate 
between two cheap tents was a freshly dealt hand of cards. Sleeping 
bags, worn and stained, lay in the tents near an outdoor kitchen 
outfitted with a propane-burning skillet. Sweatshirts, chain-store 
jeans, garbage bags, ramen-noodle wrappers, emptied cans of jalapeno 
peppers and El Pato brand tomato sauce, detergent bottles, and 
countless supermarket plastic bags littered the ground. Black PVC 
tubing fed a reservoir dug out of an embankment--a water system for 
drinking, bathing, and irrigation. The growers had bolted in such 
haste, they'd even left their shoes.
    But there were no guns to be found: A bunch of felons, working 
under some very nasty auspices indeed, were now running around this 
bucolic paradise barefoot, cranky, and possibly in possession of some 
large automatic weapons.
    Until recently, marijuana cultivation in the United States was 
mostly the province of small-time ex-hippies and the occasional 
rancher. In the last two decades, however, Mexican drug trafficking 
organizations (DTOs) have taken over the business. Before 9/11, these 
cartels produced much of their marijuana in Mexico and ran it over the 
border. But since then law enforcement has squeezed many smuggling 
routes, and the gangs have increasingly taken to growing it here.
    This is their new, brazen approach: commandeering large patches of 
public land in the United States and smuggling in illegal growers to 
convert them into mega-gardens. They're easy and cheap to grow and 
extremely difficult to detect, except from the air. In 2006, 
authorities seized nearly three million marijuana plants from public 
lands, a harvest with a potential street value of between $10 and $15 
billion, nearly half of it in California. Most investigators I spoke to 
agree that the amount seized was a fraction of the total produced. In 
other words, growing marijuana on public lands is a business worth more 
money than most Fortune 500 companies--more money, in fact, than the 
Mexican cartels (who, since the nineties, have wrested majority control 
of the American drug trade from their Colombian cohorts) make from such 
upper-shelf wares as cocaine, heroin, and methamphetamine, a fact that 
has gone strangely underreported in the press.
    ``You have to be kind of crazy, as a drug trafficking organization, 
not to jump on the marijuana bandwagon,'' Patrick Kelly, a special 
agent with the Drug Enforcement Administration in Sacramento, told me. 
``In California, even if you are caught, the chances of being 
successfully prose-cuted are almost nil.'' Prosecutors, usually a 
contrarian lot, agree. ``The Mexican DTOs have figured out the 
penalties are less for marijuana,'' said McGregor Scott, U.S. Attorney 
for California's vast Eastern District, the hardest hit in the country. 
Building cases is difficult, to put it mildly. A tangle of Mexican 
cartels and families control the trade. In turn, they enlist fierce 
Latin American gangs such as the Surenos and Mara Salvatrucha to 
distribute the weed. Many trails lead back to Michoacan, a rugged state 
on Mexico's Pacific coast, but direct ties are hard to establish. Much 
like members of terrorist cells, the growers who are caught in the 
United States either aren't privy to larger operational details or 
won't talk if they are. This is understandable. According to the 
Associated Press, 2,000 people were killed last year in Mexico's 
escalating drug wars, many of them traficantes, though not all; among 
the casualties were police and journalists.
    Gardens--they're also called ``grows''--have been found in 15 
States, from the Northwest to the Midwest to the Southeast, in a 
pattern that mimics the general trend of Mexican immigration. In 
California, every single national forest and park--from Shasta to 
Sequoia, Kings Canyon to Tahoe, and even Yosemite, the crown jewel of 
the public-land system--has been infiltrated. Each spring, the gardens 
grow more fecund and more growers are smuggled in. And each spring, 
they are bolder and better armed. The average garden requires four men 
to cultivate it. If the higher estimates of total production are right, 
that adds up to the equivalent of about five large army battalions--
roughly the number of U.S. troops dispatched to invade Grenada in 1983.
    ``An informant told us this year that word came down from the 
higher-ups to the growers to shoot if they need to,'' Knudson tells me 
one frosty morning in December. I have come to see him at his station 
in Upper Lake, a tiny town on the edge of Mendocino National Forest, a 
two-hour drive northwest of Sacramento. He doesn't bother to specify 
the growers' intended targets--himself and his fellow Forest Service 
agents. ``It's only a matter of time before a member of the public gets 
killed.''
    Mendocino National Forest is ground zero in the marijuana battles, 
having led the country in seizures last year. Amazingly, though, 
Knudson is one of only four agents patrolling its million acres. A 
young-looking 34, with a goatee and close-cropped hair, he joined the 
Forest Service at 19 to pay for college, working at first as a 
firefighter. When he wasn't putting out forest blazes, he was 
contending with tweakers and exploding kitchen labs: California has the 
distinction of supplying the country with much of its meth, as well as 
most of its pot. Indeed, the same cartels seem to control a large 
portion of both markets. ``You can't look at the whole picture,'' 
Knudson tells me. ``If you looked at the whole picture you'd be on 
medication.''
    As we drive into the forest along dirt roads, Knudson's M-16 rifle 
stowed within arm's reach, he points to the location of a raided 
garden. Then he points to another one. And another. The pointing is 
ceaseless, and the gardens are everywhere, once you know how to spot 
them--usually no more than a few hundred feet from the road.
    Every year in March and April, the growers are driven in to begin 
planting at spots that have been scouted during the winter or used 
before. After being dropped off, they hike into the forest with their 
seedlings and sophisticated lightweight irrigation systems, even 
sprinklers with battery-powered timers. After planting, they live in 
the forest through the summer and into the autumn, when they harvest 
their crop and then pack out the buds in trash bags. In their wake they 
leave terraced, eroding hillsides, dead trees, soil and water 
contaminated with pesticides, and tons upon tons of garbage--an eco-
disaster. (The Forest Service estimates that 18,000 acres have been 
affected since 2005 alone.) With each passing year they become more 
comfortable with the terrain. ``The growers know the land better than 
we do--they live in it,'' Knudson says. ``They know our schedules, they 
know when we work.''
    That none of his colleagues have been killed yet is due to little 
more than luck, Knudson believes. In 2002, a deputy sheriff was shot, 
as was a Fish and Game warden in 2005. So far, five growers have been 
shot and one killed in shootouts with agents. ``Working marijuana is 
not by choice--it's pure necessity,'' Knudson says. ``You'd think a 
Forest Service officer would be out dealing with fires or poaching or 
rowdy campers, that kind of stuff.''
    ``Would you rather be doing those things?'' I ask him.
    ``Truthfully, no,'' he says, smiling faintly. Chasing down the 
grower cells, he adds, has ``become a passion for me.''
    Passionate as Knudson may be, the frustration is audible in his 
voice. ``My job is to protect and serve, but I can't protect and serve 
a quarter million acres,'' he says. The Forest Service, part of the 
Department of Agriculture, is one of the most capacious landholders in 
the United States, but it employs only about 500 full-time agents like 
Knudson. (The National Park Service, better staffed and resourced and 
less affected by marijuana cultivation, is in the Department of the 
Interior.) Help comes from local sheriffs, California's Bureau of 
Narcotics Enforcement, the D.E.A., and the drug czar's office, which 
set up a special marijuana task force for California and an 
intelligence center in Sacramento in 1999. But even with that 
assistance, Knudson usually feels he's on his own. The D.E.A. doesn't 
disagree. ``There's no backup to call,'' Agent Kelly told me. ``There 
are no hospitals nearby.''
    ``We're getting to the point of saturation,'' Knudson admits. ``We 
just can't handle it.''
    Mexico has a long and storied history with marijuana cultivation. 
Traficantes are folk heroes, and in raided gardens, Knudson regularly 
finds figurines depicting Saint Jesus Malverde. Not recognized in the 
Roman Catholic canon, Malverde, also known as El Bandido Generoso and 
El Narcosanton (roughly translated: the Big Drug Saint), is the patron 
saint of the poor and, incongruously, drug traffickers. Some 
investigators believe the growers are indentured servants, brought over 
the border against their will. But Knudson disagrees. He thinks the 
growers brought to the United States hail from this drug demimonde.
    ``There's a true science to it that's probably been handed down 
from generation to generation,'' he says. ``As much marijuana as I've 
worked, I could never grow plants like these.'' Knudson juts out a 
forearm: ``We'll find buds like this''--a foot or more long, inches 
thick. Knudson then points to the hillside where he chased down a 
grower who was packing a 9-millimeter pistol in a belt holster. That in 
turn leads him to recall the raid in which he pulled up a sleeping bag 
and found a grower hiding beneath it, holding a loaded MAC-10.
    A week after riding through Mendocino with Knudson, I meet Scott 
Burns in Washington, D.C. An otherwise unostentatious man who bears the 
raja-length title of Deputy Director for State and Local Affairs at the 
White House Office for National Drug Control Policy (colloquially known 
as the drug czar's office), Burns is the Bush administration's point 
man on domestic marijuana eradication. His office, one block from the 
White House, is not much larger than Knudson's ranger station room, but 
he wields considerably more power, having access to the czar's $12.6 
billion budget. A faithful soldier in the war on drugs, Burns, like his 
boss, czar John P. Walters, professes to be a true believer where 
marijuana is concerned. ``More 12- to 17-year-olds are in treatment for 
marijuana addiction than all other drugs combined,'' he tells me when I 
point out that it's hard to get Americans concerned about rolling 
papers and bongs, even when foreign cartels are involved.
    But when I present him with the figures from California and tell 
him about my tour with Knudson, Burns appears almost unfazed. Unlike 
the Forest Service, the D.E.A., and the U.S. Attorney, Burns implies 
that the problem is under control, and he disputes the claim that only 
a fraction of the marijuana grown on public lands is being found. When 
I point out that public-land seizures have leapt over 300 percent in 2 
years, he tells me the figure is ``not about an explosion in plants, 
but a better efficiency in law enforcement.'' This is a curious 
statement, considering that Walters devoted a mere $3.5 million--.03 
percent of the drug czar's total budget--to the problem of domestic 
marijuana production in 2006.
    Yet Walters says that combating marijuana is a cornerstone of his 
policy. He was chief of staff to the first drug czar, William Bennett, 
who was appointed by President George H.W. Bush in 1989. The current 
President Bush appointed him in 2001, and since then domestic 
production--thanks to grows like those I saw at Shasta and Mendocino--
has reached an all-time high.
    From his cramped quarters, Burns must vie with an indifferent, even 
hostile, public, and he must look south of the border at a situation 
that may well be intractable: Mexico is in the midst of a long and 
bloody drug war all its own. The cartels are battling each other for 
control of production and access routes to the United States, but 
they're also engaged in a lethal struggle with the state governments--
when they're not infiltrating them. Gruesome violence afflicts 
Michoacan--stomping grounds of some of the cartels that dominate the 
American marijuana market--where cartel henchmen have lately developed 
a partiality for leaving human heads, with written warnings attached, 
outside government offices. Last year they rolled five of them onto a 
discotheque dance floor.
    The bloodshed is dismaying, but Burns sees it as a potentially 
promising sign. ``The violence can be an indication of many things, 
such as disrupting the cartels,'' he says. ``If everything is running 
smoothly, there's no reason to shoot somebody. It can be an indication 
of good work by the Mexican and United States governments.'' D.E.A. 
agents and prosecutors are now working with a new crop of extradited 
traficantes and are moving their way up the cartel ranks, but their 
success, and Burns's, may depend on new president Felipe Calderon. So 
far, Calderon, who was educated in Mexico and the United States, seems 
eager to impress. During protests over his controversial election, he 
sent over 6,000 soldiers and federal police into Michoacan to set 
ablaze acres of marijuana fields. He didn't rely on the Michoacan 
police, because they are underpaid, hopelessly inept, and often 
corrupt.
    But no one is safe from the cartels, it seems--perhaps not even the 
presidential family. In December, the body of a Calderon relative was 
found in Mexico City. Calderon has denied any explicit connection 
between the murder and the cartels, but the timing and the manner were 
ominous. It happened just after the crackdown in Michoacon and was 
carried out execution style.
    Then there is the Left Coast of America, an interminable irritant 
to Burns, who describes California marijuana laws with Rumsfeldian 
coyness as ``not helpful.'' California's judges, juries, and sentencing 
laws are famously forgiving, and in 1996 the State flouted Federal law, 
passing Proposition 215, the Compassionate Use Act. Burns and many 
others believe that the law has opened the floodgates for a generation 
of clever dealers claiming to be medicinal marijuana distributors and 
has directly contributed to the precipitate spike in production. In 
other words, they say, not only is California law not preventing 
Mexican cartels from infiltrating the state, it's aiding them.
    Walters may not be particularly effective in combating marijuana--
but then, neither were William Bennett and General Barry McCaffrey; 
nor, in all likelihood, will any future drug czar be. It should be news 
to no one that marijuana is an enduring feature of American life--just 
as it is in Mexico, Europe, and Asia. Recent reports suggest that at 
least a third of Americans have smoked it. Rates of use among various 
age groups rise and fall, but talk to an average high school student--
or, for that matter, an average middle-aged lawyer--and you'll find 
rather quickly that marijuana is not going away anytime soon.
    Still, the war on drugs, no less than the drug wars being waged in 
places like Mendocino National Forest, will go on. For our last stop, 
Knudson took me to an eradicated garden hours deep in the woods. How 
anyone could have found the spot was mind-boggling. Knudson only 
noticed it by chance from a helicopter while on his way to another 
garden across the ravine. The cannabis plants were gone, a field of 
truncated stalks left in their place. The ground, however, was still 
buried ankle-high in the familiar refuse--plastic bags, clothes, the 
ever-present cans of El Pato. The garbage was still there because the 
Forest Service doesn't have the budget to get rid of it. All Knudson 
could do was hope the growers wouldn't come back to this spot in the 
spring--and hope, if they did, that some unfortunate hiker wouldn't 
stumble upon it.

    Senator Feinstein. Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, thank you, Madam Chairman, for 
holding this hearing. I am going to be joining in the chorus, I 
guess, expressing my concern about the amount of money that we 
actually use for fire suppression when we could be doing so 
much more for managing our forests.
    Colorado is unique in many regards, in that we have 13 
national forests, and they provide lots of scenic viewing 
opportunity. Trees are part of that. We are having health 
problems in our tree populations affecting not only lodgepole 
pine, but also aspen.
    We haven't exactly identified what the aspen problem is. 
The lodgepole pine problem is beetles. Many States are affected 
with beetles, and Colorado is no exception. We're particularly 
being affected by the beetle problem in Colorado.
    Also unique to Colorado is that we are a State where four 
major watersheds are originating: Arkansas, the Upper Colorado, 
Rio Grande, and South Platte Rivers, which supply water to 19 
Western States.
    The key to keeping that water flowing is a good healthy 
forest. They provide the shade and protection for the snow to 
retain later on into the summer, which keeps those streams 
flowing. So we have a particular interest in good healthy 
forest management.
    I'm particularly concerned about the fire suppression cost 
and funding for national forest programs, and I have an 
editorial from Monday's Denver Post outlining the same that I 
would like to submit to the record, Madam Chairman.
    Senator Feinstein. Without objection.
    [The information follows:]

                  [From the Denver Post, May 18, 2007]

                       Fighting Fire With Funding
                   (The Denver Post Editorial Board)
    The restoration of $2 million in U.S. Forest Service funding for 
Colorado fire management projects this year is welcome and potentially 
lifesaving news.
    Until Colorado's congressional delegation intervened, the money was 
set to be diverted to other forestry programs as a midyear effort to 
balance the books at the service, which manages federal forests, 
recreation and wilderness areas.
    The restored Colorado money is intended to thin forest land of 
easily ignitable tinder that can turn a manageable fire into an 
inferno. That the administration even considered diverting the money to 
pay for other expenses points out a systemic problem with the agency's 
budgeting that ought to be addressed.
    The driving force behind the problem is the increasing cost of 
fighting wildfires and the failure of Congress to adequately budget for 
firefighting.
    It's not a problem that's going away. The price of fighting 
wildfires has spiraled as the country faces the effects of drought, 
climate change and residential development in forested areas. In recent 
years, the service has spent more than $1 billion annually to fight 
fires.
    Yet, the agency's overall budget has remained flat. Jay Jensen, 
executive director of the Council of Western State Foresters, notes, 
``Basically, everything else gets squeezed.''
    Since 1998, the agency's fire-suppression costs have routinely 
outstripped the money appropriated to pay them.
    Typically, Congress will pass supplemental measures that only 
partially cover costs incurred. To make ends meet, the agency siphons 
money from other projects. Ironically, the projects that get raided 
frequently are mitigation initiatives intended to lessen the severity 
of fires or prevent them to begin with--things such as forest thinning 
and equipment purchases, according to a 2004 Government Accountability 
Office report.
    The GAO suggested Congress consider alternative funding strategies, 
including the creation of an agency-wide or government- wide recurring 
emergency reserve account that that could be tapped to pay firefighting 
costs.
    While Colorado's congressional delegation deserves a pat on the 
back for its success in persuading Forest Service chief Gail Kimbell to 
restore the Colorado money, it's clear that a structural change in the 
budget is necessary. As fires raged through California, Florida, and 
Georgia last week, it could hardly be more apparent.

    Senator Allard. On forest management, if I may. I'm also 
concerned that funding the Northwest Forest Plan at the levels 
outlined in the President's budget will affect funding for 
forest management programs in Colorado.
    For these reasons, I look forward to this hearing and the 
discussion it will enable us to have about the Forest Service 
budget. I think this will help us to make a responsible 
decision about what is best for our Nation's forests. Thank 
you, Madam Chairman.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Madam Chairman, thank you for holding this important hearing. 
Colorado has an abundance of forests and the Forest Service budget is 
of great importance to me. The role the Forest Service plays in 
managing our public lands is of particular interest to the people of 
Colorado.
    I understand that Chief Kimbell is in our Chair's home State of 
California to unveil an accident report relating to fire, but 
Undersecretary Rey, I thank you for your appearance before the 
subcommittee today. I also appreciate the assistance that you and Chief 
Kimbell gave us in restoring funding to help address the bark beetle 
epidemics in Colorado. This was an important issue to the entire 
Colorado delegation.
    Colorado is home to 13 National Forests, more than almost any other 
State. These forests provide countless scenic vistas and some of the 
Nation's most popular recreational areas. Several of Colorado's ski 
areas lie on or adjacent to Forest Service lands. They are also very 
popular destinations for hunting and fishing, and for summer activities 
such as hiking and camping. Perhaps most importantly, Colorado's 
forests contain 4 major watersheds, the Arkansas, Upper Colorado, Rio 
Grande and South Platte, which supply water to 19 western States. 
Colorado is truly the Headwaters State.
    Unfortunately most areas of the State continue to suffer from 
drought conditions and the potential for catastrophic fires has been 
very high for a number of years. We are also experiencing forest health 
issues on an unimaginable scale. Over 600,000 acres of lodgepole pine 
are infested and dying from mountain pine beetle, over 100,000 acres of 
spruce have been infested and are dying from spruce bark beetle, and 
another 100,000 acres of aspen are affected by aspen decline. And 
forest exerts see no relief in sight. These problems only serve to 
compound one another and increase our fire risk. Colorado was very 
lucky to have dodged the bullet last year in that we did not experience 
the kind of catastrophic wildfires that other states experienced, but I 
am concerned that it is only a matter of time before we have another 
catastrophic fire year like 2002, when the Hayman, Missionary Ridge, 
and other fires burned over 200,000 acres and hundreds of homes and 
other buildings.
    I am particularly concerned about the effect of fire suppression 
costs on funding for all other national forest programs, and I have an 
editorial from Monday's Denver Post outlining the same concern that I 
would like to submit for the record. I am also concerned that funding 
the Northwest Forest Plan, at the levels outlined in the President's 
budget, will affect funding for forest management programs in Colorado.
    For these reasons I look forward to this hearing and the 
discussions it will enable us to have about the Forest Service budget. 
I think that this will help us to make responsible decisions about what 
is best for our Nation's forests. Thank you again, Madam Chairman.

    Senator Feinstein. Thank you very much, Senator Allard. 
Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman. Just two points. 
One, I'd like to commend the Forest Service for what I 
understand are its efforts to establish guidelines for 
alternatives to big cell towers on national forest lands by 
camouflaging, collocating, and concealing them.
    They're some of our most scenic areas of the United States, 
and many communities are now doing that, and I think it would 
be wise to do that wherever we can. I commend you for that; I 
hope I'm correct that that's what you're doing.
    The second is, as we go on, I wanted to raise questions 
about your proposal to sell nearly 3,000 acres of the Cherokee 
National Forest, which is in Tennessee and North Carolina, to 
pay for rural schools and roads. That seems to me like selling 
off the back 40 to pay the rent, and especially when, in 
Tennessee, just 3 percent of our land is Federal land, unlike 
Idaho, where it's 50 percent. We'd like some more Federal land, 
not less.
    We just completed purchase of 10,000 acres for Cherokee 
National Forest from Alcoa Power. There are three additional 
tracts that the Forest Service has identified that you'd like 
to acquire. If you're going to sell low-priority tracts, I 
wonder why you wouldn't take the money and use it to buy high-
priority tracts. So that was the second area, Madam Chairman, 
that I wanted to explore. Thank you.
    Senator Feinstein. Thank you very much, Senator Alexander. 
With that, we will turn to Mr. Rey. Mr. Rey, welcome.
    If you could summarize your remarks, I think we'd love to 
have the opportunity for questions, and if you could possibly 
keep your statement within 5 to 7 minutes, that would be 
appreciated; we'll activate the time clocks. Thank you.

                   SUMMARY STATEMENT OF HON. MARK REY

    Mr. Rey. We'll summarize for the record.
    Senator Feinstein. Thank you.
    Mr. Rey. What I'll do is discuss two issues relating to the 
2008 budget, both of which you all have raised concerns about, 
and then I'll ask Ms. Lago to talk about the broad outline of 
the budget, as she is substituting for the Chief of the Forest 
Service here today.
    The two issues that I will address will be changes to the 
Wildland Fire Management account and associated issues, and the 
need to provide further transitional assistance to rural 
communities through the proposed National Forest Land 
Adjustment for Rural Communities Act.
    With regard to fire, the 2008 budget proposes a total of 
$1.9 billion for activities associated with wildland fire 
management, including a new appropriation for wildland 
firefighters and other cost-saving measures.
    The events of the 2006 season made a compelling case for 
these strategic changes. On the heels of Hurricane Katrina, the 
2005 fire season flowed seamlessly into that of 2006, without 
the respite normally provided by winter precipitation.
    From November through April, extremely low humidity, 
persistent drought, and winds contributed to ignition of fires 
through Texas, Oklahoma, Colorado, Missouri, and New Mexico.
    By late July, the wildland firefighting community had 
entered preparedness level five, the highest level of fire 
activity, during which several geographic areas were 
experiencing simultaneous major incidents.
    During 2006, the Forest Service was at preparedness level 
five from late July through late September without 
intermission.
    Although the 2006 fire season had one of the highest number 
of fire starts in a single day, and an extraordinary number of 
lightning-caused fires, as well as a record number of 
simultaneous large fires, it also resulted in significantly 
fewer dwellings and other structures being destroyed; 750 homes 
in 2006, as compared to more than 4,500 homes lost in 2003.
    That, we believe, is directly attributable to the fuels 
reduction work that's been done over the last 4 years, 
concentrating in the wildland-urban interface, and does 
represent a return on the investment that we've made in fuels 
treatment work.
    Congress has repeatedly expressed concerns, including 
today, about rising fire suppression costs. Large fire costs 
are a persistent challenge for the agency and threaten to 
compromise the achievement of levels of other critical mission 
areas.
    In response, a number of key actions are underway in fiscal 
year 2007, and the 2008 budget request makes additional 
significant proposals. These include a refinement of the 
concept of appropriate management response toward a risk-
informed fire suppression approach.
    This approach provides risk-informed fire protection by 
introducing the concept of managing wildland fire in 
relationship to the risk that the incident poses.
    The Forest Service Chief will also designate an individual 
with access to a support team to provide oversight on fires of 
national significance and assistance to local units, and will 
collaborate with the Department of the Interior on interior 
lands.
    Third, national resources, such as smoke-jumpers, hotshot 
crews, and helicopters will be moved to areas and incidents 
based on predictive services and on planning levels, as opposed 
to simply based on prior practice.
    Fourth, aviation resources will be managed more effectively 
to reduce their high cost. A full-time national helicopter 
coordinator will be selected to provide oversight for the 
assignment and positioning of helicopters.
    Helicopter management will be centralized as a national 
resource, and the agency will attempt to shift more to 
exclusive use versus more expensive call-when-needed contracts 
for helicopters.
    Fifth, efforts will be made to maintain our initial attack 
success, while reducing the dependence on severity funding. 
This explains the distribution of funding between suppression 
and preparedness, and with those two accounts, we believe we 
have adequate flexibility to respond to the 2007 fire season.
    I would note that in a previous appropriations bill, the 
Congress required an independent audit of large incident fires 
each year. Yesterday, we released the independent audit of the 
19 large fires that burned more than 1.1 million acres and cost 
more than $470 million to suppress.
    The independent panel organized by the Brookings 
Institution found that the Forest Service exercised appropriate 
and adequate fiscal diligence in suppressing wildfires on each 
of these 19 incidents.
    The report also provides a number of recommendations for 
additional potential cost reductions, which will be evaluated 
and adopted as appropriate, as we move into the 2007 fire 
season.
    I'll make a copy of the Brookings Institution report 
available for the record of this hearing.
    [The information follows:]

    The report can be accessed at the following location: 
http://www.fs.fed.us/fire/BR6988%7E1.PDF

    Mr. Rey. The second thing that I'd like to talk about is 
the Secure Rural Schools and Community Self-Determination Act 
of 2008, and our proposal to reauthorize that statute.
    The statute was enacted in 2000 to provide transitional 
assistance to rural communities affected by the decline in 
revenue from timber harvests on Federal lands. The last payment 
authorized by the act was for fiscal year 2006 and was made in 
December 2006.
    In lieu of a multi-year reauthorization, the administration 
continues to support a 1-year extension of the act with agreed-
upon offsets as an interim step.
    With our budget proposal, we have submitted the National 
Forest Land Conveyance for Rural Communities Act, which would 
also authorize a 4-year extension of the funding formerly 
provided by the 2000 legislation. The legislation would also 
provide conservation funding for national forests and 
grasslands.
    Sale of identified National Forest Systems lands, similar 
to those lands described in the fiscal year 2007 budget 
proposal, would provide funding to both replace what was 
provided to schools under the 2000 legislation, as well as 
additional money for land acquisition.
    Our proposal would authorize the Secretary to sell the 
sufficient national forest land to fund an $800 million 
account. Under the legislation, 50 percent of the receipts 
obtained from land sales would be used as a funding source to 
make the rural school payments over a 4-year period, with a 
gradual phase-out.
    The remaining 50 percent of receipts from land sales within 
a State would be used for land acquisition and related 
conservation purposes.
    Over the last 20 years, as we've exchanged less desirable 
parcels for more desirable parcels, we have added lands to the 
National Forest System, because the lands that we have been 
exchanging out are more economically valuable and less 
environmentally valuable. Conversely, the lands we've been 
acquiring through these exchanges are more environmentally 
valuable and less economically valuable.
    Because these exchanges are value-for-value exchanges, 
we've averaged about three acres received for every acre 
transmitted out of Federal ownership.
    If this proposal were to become law, using half of the 
money from the sale of lands, we would probably net increase 
the number of national forest acres, and we would do it more 
effectively than doing it through exchanges, because exchanges 
require a one-to-one correlation between what we want to 
exchange and what somebody else wants to exchange, and that's 
often difficult and time-consuming to do.
    We often have to find a third party to bridge the gap--the 
difference between what we'd like to get and what we'd like to 
exchange away.

                           PREPARED STATEMENT

    So I think should this proposal be enacted, we would not 
only have money to fund the schools, but we would have money to 
effect a net increase in national forest acreage, and acquire 
acres that are more valuable for the National Forest System at 
the same time.
    That will conclude my remarks, and I'll turn the podium 
over to Ms. Lago.
    [The statement follows:]
                  Prepared Statement of Hon. Mark Rey
                                overview
    Madam Chairman and members of the Subcommittee, I appreciate the 
opportunity to discuss the President's fiscal year 2008 Budget for the 
Forest Service during today's hearing. I am pleased to join Gail 
Kimbell, newly appointed Chief of the Forest Service, at this hearing 
today.
    I will discuss two issues that relate to the 2008 Budget. First, I 
will address changes in the Wildland Fire account and associated 
issues. I will next address the need to provide further transitional 
assistance to rural counties through the proposed National Forest Land 
Adjustment for Rural Communities Act.
                             wildland fire
    The 2008 Budget proposes a total of $1.9 billion for activities 
associated with Wildland Fire Management, including a new appropriation 
for Wildland Fire Fighters. The events of the 2006 fire season make a 
compelling case for these strategic changes.
    On the heels of Hurricane Katrina, the 2005 fire season flowed 
seamlessly into that of 2006--without the respite normally provided by 
winter precipitation. From November through April, extreme low 
humidity, persistent drought conditions, and winds contributed to the 
ignition of fires through Texas, Oklahoma, Colorado, Missouri, and New 
Mexico. By late July, the wildland fire fighting community had entered 
Preparedness Level 5--the highest level of fire activity, during which 
several geographic areas are experiencing simultaneous major incidents. 
During 2006 the Forest Service was at Preparedness Level 5 from late 
July through late September, without intermission. Although the 2006 
fire season had one of the highest number of fire starts in a single 
day (548), an extraordinary number of lightning-caused fires (over 
16,000), and a record number of simultaneous large fires (affecting 
nearly every region in the country); it also resulted in significantly 
fewer dwellings and other structures destroyed--750 homes lost in 2006 
as compared to more than 4,500 lost in 2003.
    Despite many positive accomplishments, fire suppression 
expenditures topped $1.5 billion in 2006. Moreover, the agency has 
spent over $1 billion on fire suppression in 4 of the last 7 years. The 
increasing frequency of ``billion dollar'' fire-fighting years is 
driving up the 10 year average suppression cost figure, which is used 
to determine suppression funding levels. Congress has repeatedly 
expressed concerns about rising fire suppression costs. Large fire 
costs are a persistent challenge for the agency and threaten to 
compromise the achievement levels of other critical mission areas. In 
response, a number of key actions are underway in fiscal year 2007, and 
the 2008 Budget request makes additional significant proposals.
    The most significant actions underway in 2007 include:
1. From Appropriate Management Response to Risk-Informed Response
    The Appropriate Management Response (AMR) was articulated in the 
2001 update of the Federal Wildland Fire Management Policy. Further, 
the 2008 Budget reflects refinement of the concept of AMR toward a 
risk-informed fire suppression approach. This approach provides risk-
informed fire protection by introducing the concept of managing 
wildland fire in relationship to the risk that the incident poses. If a 
wildland fire has potential benefits to natural resources and poses a 
relatively low risk to impact other valued assets, the fire would 
receive a lower intensity suppression effort. Conversely, if a fire 
incident is determined to pose high risk to property or community, high 
suppression efforts would be applied. The approach utilizes risk 
management and tools such as probability analysis and actuarial data to 
inform rigorous and systematic ways to reach decisions that allocate 
resources on the basis of risk posed by the wildfire and the strategy 
used by managers to address it. The Forest Service has developed a 
draft guidebook that presents a coherent strategy to implement this 
approach. DOI is reviewing this guidebook and will work with Forest 
Service on interagency implementation.
2. Forest Service Chief's Principal Representative
    The Forest Service Chief will designate an individual with access 
to a support team to provide oversight on fires of national 
significance and assistance to local units and will collaborate with 
the DOI on DOI lands. The individual will be highly experienced in 
wildfire management, and the team will have knowledge and capability 
with decision-support tools. These changes will immediately provide for 
experienced decision-making that should reduce costs on large fires.
3. National Shared Resources
    National resources such as smoke jumpers, hot shot crews and 
helicopters will be moved to areas and incidents based on Predictive 
Services and on Planning Levels. This will create a more centralized 
and flexible management of these response resources. Funding and 
decision-making from the national level will ensure consistency across 
regions, flexibility in the assignment of resources and eliminate 
geographic concentration of resources that impose costs in both time 
and money.
4. Aviation Resource Cost Management
    Aviation resources will be managed more effectively to reduce their 
high cost. A full-time National helicopter coordinator will be selected 
to provide oversight for the assignment and positioning of helicopters. 
Helicopter management will be centralized as a national resource. The 
Forest Service will attempt to shift more to ``exclusive use'' versus 
``call when needed'' contracts for helicopters. This will increase 
preparedness costs initially, but is expected to greatly reduce large 
fire suppression cost with potential saving of tens of millions of 
dollars per year. We will pursue longer term aviation contracts for all 
aviation resources with increased performance-based contracting. DOI 
also is pursuing strategies to reduce its costs.
5. Initial Attack and Severity Funding
    Efforts will be made to maintain our initial attack success while 
reducing the dependence on severity funding. The Forest Service will 
require lower thresholds for the approval of severity funding to be 
elevated for approval by the Chief. National Shared Resources will be 
pre-positioned whenever possible in geographic areas where fire risk is 
the greatest during the fire season. The Forest Service and DOI 
agencies will continue to submit a coordinated severity request so as 
to not duplicate effort or expense.
    In addition to the changes for 2007, the 2008 Budget proposes a 
separate appropriation for Wildland Firefighters. The Budget proposal 
moves funding for firefighters out of the Preparedness budget within 
Wildland Fire, and into a separate appropriation. There is no net 
program change as a result of this move. Importantly, this adds a 
higher degree of visibility and transparency to fire suppression 
activities and provides $220 million for hiring and training the 10,000 
firefighters necessary to ensure a successful fire season.
    The Wildland Fire account's Suppression line is funded at $911 
million, reflecting the updated 10-year average for total suppression 
costs as adjusted for inflation and includes indirect costs not charged 
to fire suppression in previous years--but now required by Congress to 
be included in the account.
    The Budget funds Fire Preparedness at $349 million, which is a 
reduction of $97 million as compared to the fiscal year 2007 when 
considering the strategic shifts and creation of the new Wildland 
Firefighter account.
    We expect that the management improvements implemented and underway 
will enable managers to be better prepared for wildfires; help managers 
to make better decisions during firefighting operations; and provide 
managers with the tools necessary to analyze, understand and manage 
fire suppression costs. While the factors of drought, fuels build-up in 
our forests and increasing development in fire prone areas have the 
potential to keep the number of incidents and total cost of wildfire 
suppression high for some time to come, we are confident in our 
strategy to address wildland fire suppression costs and are committed 
to action. We believe that the measures discussed today promise to 
expand efficiency and reduce suppression costs. We look forward to 
continued collaboration with our Federal, State, local, Tribal, and 
other non-Federal partners to address our shared goal of effectively 
managing wildfire suppression costs.
   continuing transitional support to rural communities through the 
       national forest land conveyance for rural communities act
    The Secure Rural Schools and Community Self-Determination Act of 
2000 (SRS) (Public Law 106-393) was enacted to provide transitional 
assistance to rural counties affected by the decline in revenue from 
timber harvests in federal lands. Traditionally, these counties relied 
on a share of receipts from timber harvests to supplement local funding 
for school systems and roads. Funding from SRS has been used to support 
more than 4,400 rural schools and to help maintain county road systems. 
In addition SRS has authorized the establishment of over 55 Resource 
Advisory Committees (RAC) in 13 States, which has increased the level 
of interaction between the Forest Service, local governments, and 
citizens--resulting in greater support and understanding of the 
agency's mission. RACs have implemented more than 4,500 resource 
projects on National Forests, Grasslands, and adjacent non-federal 
lands with a value from SRS funds and leveraged funds of more than $292 
million.
    The last payment authorized by the SRS Act was for fiscal year 2006 
and was made in December 2006. The administration continues to support 
a 1-year extension of the SRS Act with agreed-upon full offsets as an 
interim step. The Budget underscores the President's continuing 
commitment to states and counties impacted by the ongoing loss of 
receipts associated with lower timber harvests on Federal lands. The 
National Forest Land Conveyance for Rural communities Act is included 
in the fiscal year 2008 President's Budget to fund transition payments 
targeted to the areas of greatest need, and to provide counties 
additional time before payments are phased-out. Under the proposal, 
half of land sales proceeds will be available to offset county payments 
and half will be available for national forest acquisition or habitat 
improvement in the states in which lands are sold. Counties benefit 
from 4 additional years of payments, and states receive an 
environmental benefit from exchanging land with low environmental 
values for lands with high environmental value.
    The National Forest Land Conveyance for Rural Communities Act would 
authorize a 4-year extension of the funding formerly provided by SRS. 
The legislation would also provide conservation funding for National 
Forests and Grasslands. Sale of identified National Forest System 
lands--similar those lands described in the fiscal year 2007 budget 
proposal--would provide funding to replace that which SRS had provided. 
Our new legislation differs from our previous proposal by including 
additional provisions which allow for land sale receipts to also be 
used for the acquisition of land for the National Forest System, 
conservation education, improved access to public lands, wildlife and 
fish habitat improvement.
    This year's proposal addresses the concern that affected States 
would not receive financial benefit from the sale of Federal lands 
within their borders. It does so by including a requirement that 50 
percent of all land sale receipts be retained for conservation purposes 
within the State from which the receipts were derived.
    The legislation would authorize the Secretary to sell excess 
national forest land or interests in land that the Secretary determines 
to be both eligible for disposal and in the public interest. Many of 
these lands are isolated from other contiguous National Forest System 
lands, and because of their location, size, or configuration are not 
efficiently managed as components of the National Forest System.
    Isolated tracts can be expensive to manage because of boundary 
management and encroachment resolution costs. The sales of these lands 
will not compromise the integrity of the National Forest System; 
instead, it will allow the agency to consolidate federal ownership and 
reduce management costs. Land sales would be limited to a list of lands 
identified by the Secretary. By selling lands that are inefficient to 
manage or have limited ecological value, and subsequently purchasing 
critical, environmentally sensitive lands; the Forest Service will 
maintain the integrity of the National Forest System, while funding 
payments under the Act in a fiscally responsible manner.
    Our proposal would authorize the Secretary to sell sufficient 
National Forest land to fund an $800 million account. Under the 
legislation, 50 percent of receipts obtained from land sales would be 
used as a funding source to make SRS payments over a four year period 
with a gradual phase-out. The remaining 50 percent of receipts from 
land sales within a State would be used for conservation purposes.
    Finally, the legislation would authorize the establishment of a 
National Advisory Board to advise the Secretary on the land sales and 
the use of their proceeds. State governments will be encouraged to 
participate in formulating recommendations to the National Advisory 
Board for habitat improvement projects and land acquisition needs. By 
selling lands that are inefficient, isolated, or of limited-value and 
purchasing critical, environmentally sensitive lands, the Forest 
Service will maintain the integrity of the National Forest System while 
funding payments formerly provided by SRS.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Feinstein. Thank you very much. Ms. Lago.

                        STATEMENT OF LENISE LAGO

    Ms. Lago. Thank you, Madam Chairman. I'd like to present an 
abbreviated version of Chief Kimbell's testimony, and request 
that her full statement be entered into the record.
    Senator Feinstein. So ordered.
    [The statement follows:]
      Prepared Statement of Abigail Kimbell, Chief, Forest Service
    Madam Chairman and members of the subcommittee, it is a great 
privilege to be here today to discuss the President's budget for the 
Forest Service in fiscal year 2008. Let me also say, having been Chief 
of the Forest Service for just over 3 months, I am deeply honored to 
have this opportunity.
    First, I want to express my gratitude to Secretary Johanns for his 
confidence in me, and to thank the dedicated, hard-working employees of 
the Forest Service for their support and encouragement. Let me also 
express my appreciation in advance to you Mr. Chairman and members of 
the subcommittee for working with the Forest Service and me during this 
transition.
    I will begin by saying a few words about myself and my long-time 
commitment to the Forest Service. I have worked in the Forest Service 
for more than 30 years. I started as a seasonal employee and went on to 
serve as Forester, Planner, District Ranger, Forest Supervisor, 
Regional Forester, and Associate Deputy Chief, among other positions. I 
have worked in Oregon, Washington, Colorado, Alaska, Wyoming, Montana, 
and Washington D.C. Equipped with these experiences, I am eager to lead 
the Forest Service into its second century of service, and am humbled 
by the duties entrusted in me as Chief.
    For those new members who may be unfamiliar with our agency, the 
U.S. Forest Service works to sustain the health, diversity, and 
productivity of the Nation's 193 million acres of national forests and 
grasslands. We not only steward the National Forest System, but also 
provide states, Tribes, and private forest landowners with technical 
and financial assistance. Moreover, we are the world's largest forestry 
research organization.
    In its second century of service, the Forest Service faces diverse 
challenges. These include restoring fire-adapted forests to more 
resilient conditions, providing natural resource raw materials to the 
American public, providing sustainable recreation opportunities, 
mitigating the loss of open space, addressing the spread of invasive 
species, restoring watershed health, and more--all during a period of 
rapid fragmentation, intensive development, and landscape-scale change. 
These challenges occur at a time when our nation is pursuing deficit 
reduction goals. The Forest Service is responding, adapting, and 
modernizing in response to the complex and evolving environment in 
which we operate.
    Before I begin my testimony on the 2008 Budget however, I would 
like to reflect on Chief Bosworth's leadership and some of his many 
achievements during these past six years.
                the forest service under chief bosworth
    When Chief Bosworth took the helm of the Forest Service, the 
agency's finances were in disarray. The General Accountability Office 
had listed the Forest Service among agencies at high risk for waste, 
fraud, and abuse. Under Dale Bosworth's leadership, the agency 
progressed from being ``in receivership,'' to achieving five 
consecutive clean audit opinions from the USDA Office of the Inspector 
General. Chief Bosworth reduced overhead costs, reorganized the Deputy 
areas by eliminating two Deputy Chief positions and reducing staff, and 
guided the agency through the centralization and reengineering of its 
business processes--whose net cost reductions will approach $100 
million by fiscal year 2008. The Forest Service's improved business 
policies, processes, and organization have enhanced internal controls, 
eliminated duplication, and created accurate and complete financial 
data. Under the President's Healthy Forests Initiative, Chief Bosworth 
oversaw hazardous fuels reduction on more than 8.5 million acres. 
Further, the Chief responded with confidence and composure to such 
momentous challenges as September 11th; the Space Shuttle Columbia 
disaster; Hurricanes Katrina and Rita; and a period of wildland fire 
frequency and severity heretofore unprecedented in the modern era. 
Chief Bosworth skillfully ushered the Forest Service into the 21st 
Century's complex and demanding environment.
                 forest service fiscal year 2008 budget
    This budget request must be viewed in the larger context of the 
overall federal budget in which it is presented. Like other non-defense 
domestic discretionary programs, the Forest Service faces a constrained 
budget. And the results of the Administration's policies on economic 
growth and fiscal restraint include cutting the deficit in half, three 
years sooner than originally predicted. The fiscal year 2008 
President's Budget request for the Forest Service is $4.127 billion, 
which is approximately the same level of funding as fiscal year 2006 
and a modest reduction below fiscal year 2007. However, within that 
total are some important shifts: the budget makes important changes to 
the Wildland Fire account, maintains funding for Healthy Forests 
including the commitment to fully fund the Northwest Forest Plan to 
provide 800 million board feet of timber, and emphasizes public health 
and safety by proposing a significant increase in the Law Enforcement 
Operations budget. These increases are offset by reductions in other 
programs so that wider administration goals of supporting the Global 
War on Terror and sustaining the momentum of the economic recovery can 
continue. The President's Budget addresses reductions by continuing or 
implementing new cost saving measures and by enhancing efficiencies and 
streamlining management and organization.
    Wildland Fire.--During the 2006 fire season the United States 
experienced more than 95,000 wildfire ignitions, and more than 9.9 
million acres burned. Of those 9.9 million acres burned, approximately 
5 million acres were on Federal lands and the balance on non-Federal 
lands. The Forest Service continued its excellent track record in 
protecting lives, property, and the environment. However, as occurred 
in 4 of the last 7 years, in 2006 the Forest Service spent over $1 
billion for suppression activities--a record $1.5 billion. The 
increasing frequency of ``billion dollar'' fire-fighting years is 
driving up the 10 year average suppression cost figure, which is used 
to determine annual suppression funding levels.
    The 2008 Budget responds to escalating fire costs in three 
important ways. First, the budget provides funding for suppression at 
the 10 year average level, adjusted for inflation. The 2008 Budget 
funds Suppression at $911 million--a 23 percent increase over 2007 
levels of $741 million. Further, the 2008 Budget reflects refinement of 
the concept of ``appropriate management response'' toward a risk-
informed fire suppression approach. Under the risk-informed approach, 
wildland fire will be managed on a priority basis as determined by 
considering private property, infrastructure, and human values most at-
risk and resource benefits associated with the incident. In 2008 we 
will increase our decision support for this refined approach. New 
tools, including improved fire behavior monitoring and prediction, and 
costs and benefits of alternative suppression strategies will help 
managers decide how to respond to fires. In addition, the 2008 Budget 
pursues a more efficient and precise budget structure by establishing a 
separate account for ``firefighter'' expenditures. The 2008 Budget 
requests $220 million for this new appropriation, which will fund 
salary and training for 10,000 firefighters and 67 type I hot shot 
crews.
    Healthy Forests.--The Healthy Forests Initiative (HFI) was launched 
in 2002 to reduce administrative process delays to implementing 
projects, and Congress passed the Healthy Forests Restoration Act 
(HFRA) in 2003. The Act provides improved statutory processes for 
hazardous fuel reduction projects on certain types of at-risk National 
Forest System and Bureau of Land Management lands and also provides 
other authorities and direction to help reduce hazardous fuels and 
restore healthy forest and rangeland conditions on lands of all 
ownerships. The 2008 Budget maintains funding throughout the programs 
that support the Healthy Forests Initiative, including Hazardous Fuels, 
Forest Products, and applied Fire Science and Silvicultural Research. 
At least 40 percent of hazardous fuels funding will be used on projects 
that contribute to the goal of improving condition class on at least 
250,000 acres by the end of the fiscal year through the use of HFRA and 
HFI authorities. In addition, the Budget supports a hazardous fuels 
reduction target of 3 million acres, a timber sales target of 3.5 
billion board feet, and fully funds the Northwest Forest Plan, 
including an increase in Capital Improvement and Maintenance (Roads) to 
maintain the road infrastructure needed to support Northwest Forest 
Plan timber sales.
    Law Enforcement Operations.--The 2008 Budget proposes a $9 million 
increase from fiscal year 2007 in Law Enforcement Operations. Recent 
years have seen a significant increase in crime on National Forests, 
causing resource impacts and increasing risks to public and employee 
safety. Agency law enforcement officers are increasingly responding to 
violent crimes, including rape, homicide, domestic disputes, assault, 
robbery, drug manufacturing and trafficking, and other serious felony 
crimes. Law enforcement officers routinely respond to traffic 
accidents, search and rescue, medical or emergency assistance, 
hazardous materials spills, domestic terrorist activity, large group 
events and gang activity. In addition to reducing the impacts on 
natural resources and avoiding the associated costs of restoration, the 
requested funding increase will enable the Forest Service to maintain 
public and employee security and reduce illegal occupancy of National 
Forests.
    In order to fund these high priority programs, the Budget makes 
hard tradeoffs to other programs. Moreover, efficiencies gained through 
the centralization of Business Operations and renewed focus on 
collaborative management will help offset reductions under the fiscal 
year 2008 Budget request. In fiscal year 2008 and fiscal year 2009, the 
agency will further its efforts to optimize organizational efficiency 
by restructuring leadership and program management functions at its 
National and Regional Offices. In order to provide additional funding 
for on-the-ground performance, many headquarters and regional 
activities will be consolidated on a centralized basis, and appropriate 
program management functions will be zoned across multiple regions. The 
Forest Service will realize personnel cost decreases of approximately 
25 percent in National and Regional Office operations by the end of 
fiscal year 2009. An executive Steering team, led by Eastern Regional 
Forester Randy Moore, has been appointed to oversee the reorganization 
effort.
    I will now discuss program changes of the Research, State and 
Private Forestry, National Forest System, Capital Improvement and 
Maintenance, and Land Acquisition accounts.
                     forest and rangeland research
    The Forest Service Research Program is a globally recognized leader 
at exploring the fundamental ecological, biological, social, and 
economic questions and issues challenging natural resource management 
and conservation in the modern era. Not only do Forest Service research 
efforts inform Forest Service management, conservation, education, and 
outreach activities; but importantly, our Research programs inform the 
conservation activities of the global community.
    The 2008 Budget funds Research at $263 million. This is a 7 percent 
decrease from the 2007 funding of $280 million. The budget eliminates 
funding for un-requested Congressional earmarks and employs investment 
criteria to ensure alignment between research projects and strategic 
priorities. Funding priorities within the request include continued 
research to improve large fire decision support, particularly with 
respect to improving managers' ability to predict probability of fire 
occurrence and spread related to values at risk, long-term integrated 
planning, successful collaboration with communities, and further 
development of improved tools for integrated risk analysis. The 
invasive species program area includes new funding for research on 
biological control of invasive weeds. To help meet the Nation's energy 
needs there is an increase of $1.3 million to enhance research on wood-
based bio-fuels development and conversion processes, bio-refinery 
applications, energy efficient housing, and processing and 
manufacturing energy reduction, life cycle analysis of wood, and 
marketing analysis for energy and bio-based products. The 2008 Budget 
also retains support for Forest Inventory and Analysis, which is of 
great importance in the context of tracking today's dramatic ecological 
changes and their effects on forest resources.
    Forest Service Research and Development has focused on 
strengthening the conformance of its research program with the 
President's Management Agenda criteria for Federal research agencies: 
quality, relevance and performance. Research has identified 7 Strategic 
Program Areas (SPA), and developed strategic plans for each one. 
Further, Research plans to conduct national external panel reviews of 
each SPA, as well as reviews of each Research Station's alignment with 
the SPAs. These include periodic peer review and evaluation of all 
scientist positions through the Research Panel Process, peer review of 
proposed study plans and manuscripts for publication, and periodic 
updating of station quality assurance and quality control plans. During 
2006, a restructuring of the Research headquarters staff was initiated 
to improve responsiveness, quality, relevance, performance and 
efficiency.
                       state and private forestry
    The State and Private Forestry program is a critical component of 
the Forest Service's conservation mission in that it connects the 
agency's research and federal public lands-based programs to those of 
states and private individuals and entities. State and Private Forestry 
programs work across boundaries to conserve forested landscapes and 
open spaces, and protect the ecological services they provide. State 
and Private Forestry programs assist successful conservation of the 
nation's natural resources by enhancing cooperation between 
individuals, non-governmental organizations, states, and the federal 
government.
    The 2008 Budget funds State and Private Forestry at $202 million, a 
28 percent decrease from 2007 funding levels of $280 million. Funding 
will be focused on priority activities in the Forest Health and 
Cooperative Fire programs.
    The Forest Health program will receive more than $90 million and 
provide for treatments of invasive and native pests on more than 
600,000 acres of priority forest and rangelands. When combined with 
funds received under the National Fire Plan, the total acreage will 
increase by almost one-third and will yield close to 800,000 acres of 
treatments. Attention will be placed on priority pests such as the 
southern pine beetle, the western bark beetle and slowing the spread of 
gypsy moth. In fiscal year 2008, the Forest Health program will 
emphasize increased early survey and monitoring efforts against 
invasive species. These activities are important and integral to the 
overall program--increasing the agency's ability to prevent and detect 
problems early is a more cost-effective way to deal with invasives than 
treatments after wide spread infestations have occurred.
    The Cooperative Fire program will receive more than $42 million and 
will help more than 9,800 communities protect themselves from 
disastrous wildland fires. The majority of funds allow the Forest 
Service to provide financial assistance to state and local fire 
agencies, which in turn use the grant monies to develop and implement 
cooperative wildland fire preparedness programs and conduct hazardous 
fuel treatments around communities. A very successful program funded 
under the Cooperative Fire activity is Firewise, which emphasizes 
individual responsibility for fire hazard mitigation on community and 
private property. The program provides education and support to 
community leaders, and assistance with mitigating wildland fire hazards 
around structures. Moreover, the program leverages $4 in local matching 
funds for every federal dollar spent, allowing the program to assist 
more communities.
    Finally, more than $66 million in the State and Private Forestry 
program will fund priority Cooperative Forestry programs including the 
Forest Legacy Program, which will receive $29 million. These funds will 
be used on 14 projects, which are expected to conserve 97,000 acres of 
important forest resources. To date, more than 1.4 million acres of 
environmentally important private lands have been protected through the 
Forest Legacy Program and with more than 429 million acres of the 
Nation's forest held in private ownership this program continues to be 
important to prevent critical forest lands from being converted or 
fragmented.
    The balance of funding in the Cooperative Forestry program will 
fund Forest Stewardship and Urban and Community Forestry activities. 
All State and Private programs will focus on national goals to produce 
public benefit outcomes. State-developed resource plans will identify 
priority response to national goals. This approach is designed to 
connect with all ownerships in a collective effort to achieve healthy 
forest objectives and protect human communities from wildland fire.
                 national forest system appropriations
    The National Forest System account provides funds for the 
stewardship and management of National Forests and Grasslands. The 2008 
Budget requests $1.344 billion for this account, a 7 percent decrease 
from the fiscal year 2007. This decrease from prior year levels 
reflects greater efficiencies gained through organizational 
restructuring of leadership and program management functions at the 
National and Regional Offices. In order to provide additional funding 
for on-the-ground performance, many headquarters and regional 
activities will be consolidated on a centralized basis, and appropriate 
program management functions will be zoned across multiple regions. 
Moreover, efficiencies gained through the centralization of Business 
Operations, and renewed focus on collaborative management will help 
offset reductions under the fiscal year 2008 Budget.
    As discussed previously, the fiscal year 2008 Budget supports full 
funding for the Northwest Forest Plan and emphasizes pubic safety. 
Specifically, the National Forest System 2008 Budget proposes $319 
million for Forest Products. Funds allow for the continued full 
implementation of the Northwest Forest Plan and support an overall 
timber sales target of 3.5 billion board feet, including 800 million 
board feet from the Northwest Forest Plan. The Budget also proposes an 
increase of $9 million to Law Enforcement for a total of $124 million. 
The increased funding will be used to hire, train, and equip new law 
enforcement officers and special agents. Increased visibility of law 
enforcement will improve public and employee safety and address foreign 
drug trafficking organizations on the National Forests.
    The 2008 Budget proposes to hold funding in Grazing Management at 
prior year levels for a total of $47 million. Maintaining this level 
will enable the Agency to comply with the Rescissions Act of 1995 by 
completing the backlog of NEPA-based environmental analysis.
    Funds are available to other programs in the National Forest System 
account to address highest priority needs. The 2008 Budget proposes 
funding for Land Management Planning at $53 million, a decrease of 9 
percent. Funds will be used to support work to complete Land Management 
Plan revisions and continue work on other plan revisions. The fiscal 
year 2008 Budget also proposes $146 million for Inventory and 
Monitoring programs, a decrease of 12 percent. Funds will focus on 
forest plan monitoring and establishing Environmental Management 
Systems on 50 National Forest units. Environmental Management Systems 
are a comprehensive approach to improving the management of 
environmental issues and performance on individual units.
    The 2008 Budget proposes funding for Recreation, Heritage, and 
Wilderness at $231 million, a decrease of 10 percent. In fiscal year 
2008, the agency will continue to emphasize implementation of the 
travel management rule in order to address issues of unmanaged 
recreation, visitor safety and resource protection. By fiscal year end, 
the agency will have 48 percent of National Forest System lands covered 
by travel plans. Program funds will permit continued operation of 
recreation sites, although some reduction in seasons and hours for 
visitor information services may occur in some locations. National 
Forests are currently undertaking a process to analyze their recreation 
facilities and evaluate the future needs of the recreating public. The 
process, the Recreation Site Facility Master Planning, is an analysis 
tool, to encourage dialogue amongst a variety of interested communities 
on the changing demands for recreation facilities on national forests 
and what options may exist to respond to those changes.
    The recreation program will continue to strengthen relationships 
with private, volunteer-based, and nonprofit organizations to ensure 
some capacity levels are maintained and more particular to make 
programs and services relevant to youth in diverse and underserved 
populations.
    The fiscal year 2008 President's Budget requests $71 million for 
Minerals and Geology Management program, a decrease of 16 percent. The 
energy component of the program will focus on increasing opportunities 
for environmentally sensitive development and supply of oil and gas, 
coal, and geothermal resources from Federal lands in support of the 
Energy Policy Act of 2005. Funding levels to support environmental 
compliance and environmental restoration will continue at prior year 
levels to ensure required audits are continued and to focus on cleaning 
up publicly accessible abandoned mines and other contaminated sites in 
high priority watersheds.
    The budget also proposes funding for Wildlife and Fisheries 
Management at $118 million, a decrease of 11 percent, and for 
Vegetation and Watershed Management at $154 million, a program decrease 
of 14 percent. Focus in the wildlife and fisheries program will be on 
improving fish and aquatic passage, recovery of the Columbia basin 
salmon, and on-going recovery efforts of other species including the 
Bighorn Sheep.
    In addition to efficiencies garnered through organizational 
alignment, the Forest Service will continue to achieve efficiencies by 
centralizing Business Operations, utilizing email and video 
conferencing to lower travel costs, realigning the Agency, and will see 
these efficiencies and reduced costs continue over time. The net result 
is to maintain our foremost commitment to the land and focus funding on 
where the work gets done.
                  capital improvement and maintenance
    The Capital Improvement and Maintenance Program provides for, and 
maintains, the infrastructure for many Forest Service programs 
including; the transportation networks upon which many of our 
management operations, projects, and users depend; the recreational 
infrastructure, including trails that serve many diverse populations; 
and facilities that house Forest Service employees.
    The 2008 Budget funds Capital Improvement & Maintenance at $423 
million, a decrease of $14 million. To support the goal of selling 3.5 
billion board feet of timber, the 2008 Budget requests an additional $4 
million for Road Improvement and Maintenance. In addition to this 
request, the Forest Service will continue to receive revenues from 
sites conveyed under authorities provided by the Facility Realignment 
and Enhancement Act, which has to date provided $34 million in receipts 
to convey unneeded administrative sites and retain the proceeds for 
building maintenance, rehabilitation, and construction.
                            land acquisition
    Land covered by urban areas has more than doubled over the last 40 
years, and more than 44 million acres of private forests are at-risk of 
being developed by 2030. The Land Acquisition account enables the 
Forest Service to perennially stay abreast of, and act upon, the 
changing land-use patterns, demographic trends, and ecological changes. 
The Land Acquisition program allows us to pursue landscape 
connectivity, by purchasing in-holdings and keystone habitat parcels, 
and to manage the national forests as ecosystems rather than simply as 
real estate.
    The 2008 Budget funds Land Acquisitions at $16 million. This 
includes $8 million to purchase land and $8 million for acquisition 
management. The funding will allow us to move forward with 7 high 
priority acquisitions. The funding request continues a trend of 
declining budgets for land acquisition. However, the Budget also 
contains a legislative proposal that permits the Forest Service to 
retain upwards of $400 million in land sales for acquisition of 
national forest lands. The parcels to be sold have already been 
identified as suitable for sale or exchange because they are isolated 
or inefficient to manage. Lands with high environmental value will not 
be offered for sale, while acquisitions would focus on parcels that 
enhance the environmental integrity of our National Forests. Given the 
importance of maintaining assets already in federal ownership, the 
Budget strikes a good balance with the need to acquire and preserve 
special places.
                               conclusion
    Priority forest management issues such as reducing hazardous fuels 
in the Wildland Urban Interface and prevention of property destruction 
by catastrophic wildfires will be increasingly integrated with other 
pressing policy issues, including sequestering carbon, preserving open 
space, improving watershed health, and other mission-driven goals. We 
are addressing the costs of wildland fire suppression to mitigate 
constraints on other Forest Service programs. Our risk-based 
suppression approach and Healthy Forests Initiative fuels reduction 
work--much like our Business Operations centralization and 
collaborative management efforts--will reap tremendous mid- and long-
term efficiencies in the contexts of agency budgets and reducing risk 
to human communities posed by wildland fire. The 2008 Budget reflects 
the President's commitment to providing the critical resources needed 
for our Nation's highest priorities. The 2008 Budget also responds to 
the national need for deficit reduction while preparing the Forest 
Service for a new, more collaborative, era of natural resource 
management. With this Budget, the Forest Service will continue to 
identify and support more efficient and effective methods of pursuing 
its mission. This will be accomplished through increased collaboration, 
the use of legislative authorities, expanded program efficiencies, and 
improved organizational and financial management. Through these efforts 
the Forest Service will continue to sustain the health and productivity 
of the Nation's forests and grasslands.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our fiscal year 2008 
program, and I'm happy to answer any questions that you may have.

    Ms. Lago. Thank you, Madam Chairman, and members of the 
subcommittee. For those of you who weren't here earlier, I'm 
Lenise Lago. I'm the Budget Director for the Forest Service.
    First of all, it's a very great privilege for me to be here 
representing the Chief. Thank you. As you noted, Madam 
Chairman, Chief Kimbell could not be here today because she's 
in California for the release of the report of the 
investigation into the deaths of five Forest Service employees 
who were killed in the Esperanza Fire on October 26.
    The report of the investigation, which was conducted by the 
State of California, along with the Forest Service, will be 
released to the public later today.
    Turning to the Forest Service budget, in our second century 
of service, the Forest Service faces diverse challenges, which 
many of you have noted.
    These include restoring fire-adapted forests to a more 
resilient condition; providing natural resource raw materials 
to the American public; and providing sustainable recreation 
opportunities, and more, during a period of rapid 
fragmentation, intensive development, and landscape scale 
change.
    These challenges occur at a time when our Nation is 
pursuing deficit reduction goals. The Forest Service is 
responding; we're adapting, we're modernizing in response to 
the complex and evolving environment in which we operate.
    This budget request must be viewed in the larger context of 
the overall Federal budget in which it is presented. Like other 
non-defense domestic discretionary programs, the Forest Service 
faces a constrained budget.
    The fiscal year 2008 President's budget request for the 
Forest Service is $4.1 billion. That's about 2 percent less 
than we had in 2006, and as you noted, about a 5 percent 
reduction below 2007.
    However, within that total are some important shifts. Since 
the Under Secretary's testimony focused on wildland fire and 
the proposal for secure rural schools, I'd like to briefly 
discuss three other emphasis areas. We can discuss other 
programs during the question and answer period.
    First of all, Healthy Forests. The 2008 budget maintains 
funding throughout the programs that support the Healthy 
Forests Initiative, including hazardous fuels, forest products, 
and applied fire science and silvicultural research.
    At least 40 percent of hazardous fuels funding will be used 
on projects that contribute to the goal of improving condition 
class, with a target of at least 250,000 acres treated by the 
end of the fiscal year through the use of the Healthy Forests 
Restoration Act and Healthy Forests Initiative authorities.
    This is part of a total hazardous fuels reduction target of 
3 million acres, and a timber sales target of 3.5 billion board 
feet. It fully funds the Northwest Forest Plan, including 
sufficient funds in Capital Improvement and Maintenance-Roads 
to maintain the road infrastructure needed to support the 
Northwest Forest Plan timber sales.
    Our second emphasis area, as you also noted, is law 
enforcement. This budget emphasizes public health and safety by 
proposing a $9 million increase in law enforcement operations. 
Recent years have seen a significant increase in crime on 
national forests, causing resource impacts and increasing risk 
to public and employee safety.
    The requested funding increase will enable the Forest 
Service to maintain public and employee security and reduce 
illegal occupancy on national forests.
    The third area I'd like to talk about are efficiencies. The 
need to fund high-priority programs is severely restricted by 
the requirement to fund the 10-year average for fire 
suppression. This budget begins to look at what we can do to 
attack fire differently to achieve cost savings.
    Throughout the non-fire programs, we're looking at ways to 
increase efficiency and add value. For example, in fiscal year 
2008 and fiscal year 2009, the agency will further its efforts 
to optimize organizational efficiency by restructuring 
leadership and program management functions at the national and 
regional office levels.
    In order to provide additional funding for on-the-ground 
performance, many headquarters and regional office activities 
will be consolidated on a centralized basis and appropriate 
program management functions will be zoned across multiple 
regions.
    The Forest Service will realize cost decreases of 
approximately 25 percent in national and regional office 
operations by the end of fiscal year 2009. The efficiencies 
gained through the continued centralization of business 
operations through Washington and regional office 
transformation, and renewed focus on collaborative management, 
will help offset reductions in the fiscal year 2008 request.
    The net result, and the reason that we're doing this, is to 
maintain our foremost commitment, which is to the land, and 
focus on funding work where it gets done.
    Thank you for this opportunity to discuss the President's 
budget. On behalf of Chief Kimbell, we stand ready to work with 
you to implement our fiscal year 2008 program. I'm happy to 
answer any questions that you have.

                              FIREFIGHTING

    Senator Feinstein. Thank you very much. As chairman of this 
subcommittee, for however long or short it might be, I 
essentially have three priorities with respect to the budget. 
The first is to see that we do everything we can to manage 
forests and fight fires, so that we make a consequential dent 
in what is happening.

                         MARIJUANA ERADICATION

    The second is that we are able to stop marijuana from being 
grown in our national forests. In my State, marijuana is 
currently being grown in every single national forest. That is 
unacceptable. Growers are armed, they shoot, they leave the 
ground as an eco-disaster. It's my understanding 19,000 acres 
have been essentially ruined.
    This is unacceptable. It would just seem to me that if INS, 
instead of going into the homes of innocent people, would go 
into some of these forests and rout these crews, and arrest 
them and send them away, it'd go a long, long way.

                          QUINCY LIBRARY GROUP

    The third is the Quincy Library Group. Quincy was something 
that I authored. I feel strongly about it. It is not working 
adequately now.

               LAW ENFORCEMENT AND MARIJUANA ERADICATION

    So let me just ask a few questions on these points. Let me 
begin with the law enforcement and the marijuana. You're funded 
at $124 million. You've got a $12 million increase, if the 
money survives, in the supplemental. My question is, how many 
new personnel do you plan to hire, and how will you prioritize 
enforcement in areas like my State that have the highest 
concentration of drug activity in our forests?
    Mr. Rey. Our current plans, should our requested increase 
go forward, would be to hire an additional 60 agents, and they 
would be prioritized on the forests with the highest amount of 
marijuana cultivation.
    The reason that the cartels are on the national forests is 
that we have done a pretty good job of interdicting large 
volume shipments across the border, so they're adapting to our 
success.
    The reason they are disproportionately on the national 
forests, as compared to say Bureau of Land Management lands, is 
that we have water, and we have trees, which work as good 
visual barriers to help hide the cultivation work that's being 
done, as opposed to open range lands, where it's more easy to 
identify from the air.
    Senator Feinstein. Is there any relationship between your 
Department and the INS, or ICE now----
    Mr. Rey. Yes, we----
    Senator Feinstein [continuing]. To have those people help 
you going in? These are all Mexican nationals. They don't 
belong here.
    Mr. Rey. Right.
    Senator Feinstein. They've broken the law coming here, and 
they've broken it again by growing marijuana.
    Mr. Rey. We have cooperative agreements with both INS and 
the Border Patrol, as well as the Drug Enforcement 
Administration.
    Senator Feinstein. So they actually go into the national 
forests and pull people out?
    Mr. Rey. When we do a major operation, it's usually a joint 
operation with INS, local law enforcement, and our own agents.
    Senator Feinstein. Okay, good. I'd like to know a little 
bit more about that, if I can.
    [The information follows:]

    Clerk's Note.--Senator Feinstein asked for more information about 
joint operations between agencies to eradicate marijuana on Federal 
lands. A meeting to discuss this subject was scheduled for June 25, 
2007, between Senator Feinstein, Under Secretary Rey, Forest Service 
Director of Law Enforcement and Investigations John Twiss, and 
representative of the Drug Enforcement Administration and the Federal 
Bureau of Investigation.

    Senator Feinstein. Let me speak for just a moment about the 
Quincy Library Group. If I understand it, the Sierraville 
District ranger position is the only one in Sierra County.

                          QUINCY LIBRARY GROUP

    That's 75 percent national forest land, and the county is 
very concerned that a consolidation will hurt the Forest 
Service's ability to the local community's issues and concerns.
    The local board of supervisors unanimously passed a 
resolution on May 15 opposing these plans. I strongly oppose 
these plans. I don't think you can leave this huge area without 
a ranger.
    So my question is, has a decision been made to consolidate 
these ranger districts, and what impact will this plan have on 
the community and the success of Quincy Library Group 
activities?
    Mr. Rey. I don't think it will have any measurable impact 
on the community, and it should have no impact on the 
implementation of the Quincy Library Group activities. While 
we're planning to manage the east side of the forest as one 
district, we're not proposing to close any offices, and we're 
not moving any employees.
    So we're simply extending the span of control of a district 
ranger to include a larger number of offices.
    Senator Feinstein. Well, if I may, I'd like to know more 
about that.
    Mr. Rey. Sure.
    Senator Feinstein. The Forest Service tells us no final 
decision has been made, and I just want to reemphasize the 
importance of this to the Quincy Library Group and to 
everything that we have passed and authorized and moved forward 
with.
    Mr. Rey. Madam Chairman, I think one of the things you may 
be hearing is that there's still a lot of unhappiness with some 
downsizing we did over two decades ago on the east side of the 
Sierras. We moved an office out of Downieville, and therefore, 
anytime we announce any changes, we send up a fair amount of 
flares.
    But we'd be happy to work with you on this one, because I 
don't think what we're doing is going to materially affect the 
communities there.
    Senator Feinstein. All right. The whole point of Quincy is 
to build firebreaks, to do small logging on these fire breaks 
so that you make the forest more secure, and you also create 
jobs for the people.
    The pilot legislation requires the Forest Service to treat 
between 40,000 and 60,000 acres, creating the strategic system 
of fuel breaks.
    My understanding is that you've only been able to reach the 
acreage goal outlined in the legislation once. What are the 
major obstacles to implementation of the goals, and what is the 
Forest Service doing to meet these challenges?
    I know some of it is litigation, but we need to get around 
that somehow, some way, and I thought that our Hazardous Fuels 
legislation created the opportunity to do that.
    Mr. Rey. Both the Quincy Library legislation and the 
Healthy Forests Restoration Act gave us new tools to do fuel 
reduction work. But you put your finger on the main impediment 
that exists today, and that's working through the litigation 
associated with many of the projects that we've proposed.
    The Quincy Library Group area has a somewhat larger 
frequency of litigation than the State as a whole. The State as 
a whole has a somewhat larger frequency of litigation than the 
country as a whole.
    I don't know that there's any easy answer, but to do the 
best job we can in both producing these projects using the 
authorities you've given us, and then do the best job we can 
defending them in court, is what we do.
    Senator Feinstein. Just one last question. In August, I 
hope to meet with the Quincy Library Group and go over this, 
and it would be very helpful if you or someone could be there 
from the Department that we might be able to find a way to 
ameliorate this and move this program forward. I'm very 
concerned about it.
    Mr. Rey. I'd be happy to join you there in August.
    Senator Feinstein. Thank you. Thank you very much. Senator 
Craig?
    Senator Craig. Thank you, Madam Chairman. Revisiting Quincy 
is fascinating to me. Obviously, I helped you legislate that--
--
    Senator Feinstein. Yes, you did.
    Senator Craig [continuing]. As one of the early 
collaborative efforts on the part of community and stakeholders 
to try to resolve what had become, obviously, a point of 
tremendous conflict.
    I must say I'm always frustrated when local environmental 
groups and local stakeholders come together to agree to 
something, but the nationals say no, and then they start filing 
lawsuits--a right hand doth not know what left hand does. In 
this case, you're obviously concerned, as you should be, that 
not all has been carried forward.

                           WILDLAND FIRE RISK

    Mark, there are a variety of questions I want to ask both 
you and Ms. Lago, but let me take you to the Brookings study 
and the overview there.
    Talk to us about some of the key findings. I have tried to 
understand the idea of firefighting, as now envisioned by the 
Forest Service, where I see literally large communities and 
tens of thousands and millions of dollars established and spent 
in the course of a fire.
    But you used one word that worried me a great deal, because 
of the transformation of our public lands, and especially the 
fee lands within them, where large mega-homes are being built.
    I know that we have reason to be proud of the fact that 
we've lost fewer homes, and I'm glad you believe, and have 
justification to believe, that that's a result of thinning and 
cleaning. It certainly is in some areas of my State.
    But you used the word ``risk''. Am I to assume--and this is 
just an assumption--that where there are no big homes, there 
will be therefore less risk to human structures, therefore, 
less focus on fighting fire?
    We've got habitat out there, we've got watershed to worry 
about. We've seen the idea of simply letting it burn go, 
because now we have a cost factor involved.
    We know that in some of these heavily fuel-laden 
environments, the fires are mega-fires, in the sense of 
temperature and damage to the subsoil and subsoil surfaces or 
conditions, and therefore, the ability of the forest to 
regenerate itself is lessened.
    What does your use of the word ``risk'' mean--you used it 
in your testimony--as it relates to the selectivity or the 
decisionmaking as to where to fight and where to engage a fire?
    Mr. Rey. What we're talking about here is doing an analysis 
of the resources that are there against the proposition of 
whether the fire is going to pose a direct risk to those 
resources or a lower risk, or, alternatively, maybe even a 
beneficial effect.
    There are obvious cases where there is property involved 
where the risk is high. The less obvious cases are where 
there's no property involved. But that doesn't necessarily 
mean, even when there's no property involved, that we're 
viewing the fire as one that would be a low priority to 
suppress.
    It would depend on what the ecological values are, and what 
our level of certainty is that we can extinguish the fire if it 
burns beyond the parameters that we want.
    So we are doing fire management plans on all of our units 
to evaluate where there are areas where the risk to the loss of 
some value, whether it's an ecological value or an economic 
value, in the form of property or structures, is sufficiently 
low that we wouldn't----
    Senator Craig. So I was right in my assumption?
    Mr. Rey. You better repeat the assumption, so I can be 
sure.
    Senator Craig. All right. Structure versus non-structure 
decisionmaking.
    Mr. Rey. No, no. Where there are structures, the choice is 
fairly obvious. But where there are no structures, there are 
still instances where we're going to move to immediate 
suppression.
    The most common of those instances would be where the fuel 
loads are too high for the fire to burn safely, and the risk of 
a larger spread is too great, or where there are ecological 
values involved that we know a fire would diminish.
    Conversely, where there are no structures, there are areas 
where the risk of spreading beyond where we'd like to see the 
fire burn is fairly low, and where the resource values are also 
low, and the fire might have a beneficial effect.
    Senator Craig. Okay. Well, I've observed fire all of my 
life. I've observed a time when the slightest smoke put 
smokejumpers in, and the fire was put out. Now, I've watched 
knowledgeable people debate for days whether to engage, while 
the fire roars across the landscape.
    I hope whatever system you put in place allows rapid 
decision-making, instead of will it or won't it or should it or 
could it get into a certain watershed, and if it does, then we 
put it out. Oftentimes, the damage, as you know from your own 
experience, is excessive.
    I won't carry that forward. Let me ask this question of 
you, Mark. We've talked about what went on last year. We saw 
the worst fire season ever in total acreage burn. The chairman 
speaks of drought. Our runoff this year in Idaho is 
substantially less than we thought it would be.
    We hope this year's fire season, as bad as it may be, won't 
be as bad as last year. Your agency could be $750 million short 
of what it needs to fight fires and be forced to borrow massive 
amounts of money from other programs if we have a similar fire 
scenario.
    When GAO looked at firefighting borrowing problems 
recently, it concluded that the borrowing of funds caused 
numerous project delays and cancellations, strained 
relationships with State and local agency partners, and 
disrupted program management efforts.
    In some cases, these cancellations and delays increased 
costs and the time needed to complete the project.
    Can you then, from your own perspective now, and with the 
resources you have, give us some sense of how severe you expect 
this fire season to be, based on what you know now? That's one 
question.
    The supplemental appropriation bill that we have been 
considering has $400 million for Forest Service, for 
firefighting. I understand that some folks at the OMB think 
this funding is unnecessary.
    Is it your sense that these funds are needed by the agency 
to pay for firefighting and to avoid the massive borrowing that 
has occurred in recent years? So, I'd like to know about the 
issue of borrowing and the issue of fire perspective for this 
season.
    Mr. Rey. The answer to the first question is we predict 
this season will be less severe than last year, but still above 
the 10-year average, given the long-term drought indications. 
That's answer one.

                     BORROWING FUNDS TO FIGHT FIRES

    Question two is we believe that it's too early to be 
putting additional money in the account. The fire season is 
developing somewhat more slowly than last year, and if need be, 
we can adjust the 2008 bill and make that work for us.
    Third, the impact of borrowing is basically as GAO has 
stated it. It's not the most perfect way to fund firefighting, 
but it is the way we have. We did propose a governmentwide 
contingency account with our 2003 budget proposal, and that's 
something we'd be willing to pursue with you again.

                           WILDLAND FIRE RISK

    I did, however, so garble the answer to the previous 
question, I'd like to add to it, if I might, Madam Chairman, 
because I think I left you all feeling very uneasy about when 
we do and when we don't decide to suppress fires.
    Senator Feinstein. Please do.
    Mr. Rey. We don't spend time debating whether to suppress a 
fire after it's ignited. The fire management plans make those 
decisions ahead of time.
    Included in those decisions are not only physical 
limitations on where and where not, but other variables as 
well. Just looking at fuel loads and topography in an area, we 
might not move to immediate suppression, but if we're in high 
winds or extended drought, we will.
    So there are triggers within those plans that require 
immediate action in certain circumstances when, if those 
circumstances were not present, we would otherwise think that's 
a fire that might have a salutary effect if it burned.
    Last summer, we heard from a lot of places about the fact 
that we were letting more fires burn, and that it was somehow 
an indictment of this overall risk-based approach to 
firefighting.
    In a normal bad year, we'll have one or two broad-scale dry 
lightning events. Those are events where we get as many as two 
or three thousand ignitions in one 24 or 48-hour period.
    When that happens, we typically try to get all of those 
ignitions, but when you've got that many at once, you don't get 
them all.
    So you leave the ones that are the most remote to get to 
last, and you run the risk that one or more than one of those 
is going to grow into a larger fire. But it makes sense to go 
to the most close-in ones that are nearer property first.
    Last year, we had seven of those large dry lightning 
incidents, so there was a greater number of escapements because 
there was a greater number of large multi-ignition dry 
lightning events.
    Consequently, we heard, and I'm sure you all heard, that 
the Forest Service is letting some of these burn. Well, we 
weren't letting them burn. We were responding to them as 
quickly as possible, given the multiplicity of the ignitions 
that were occurring over a very short and compressed period of 
time.
    Senator Feinstein. Thank you, Mr. Rey.
    Senator Craig. I'll come back for second round. Thank you.
    Senator Feinstein. Very helpful. Senator Stevens?

               LAW ENFORCEMENT AND MARIJUANA ERADICATION

    Senator Stevens. Well, I want to ask you a question, but I 
hope you won't take 5 minutes answering it, because I want to 
get to Alaska in my questions. But I am disturbed you're going 
to hire agents. We have other subcommittees where we deal with 
the problems of illegal growers.
    I don't know why Agriculture needs agents to deal with 
those illegals in the forest areas. It'll take a year to train 
them. Why don't you go out for a task force from DEA and the 
National Guard and Immigration, and go in and take them down?
    If you did one or two, took them down really seriously, you 
wouldn't have any more. But if you wait a year to train agents, 
it'll just get worse. This calls for action, in my opinion. 
Maybe I'm watching too many episodes of 24, but it's time 
someone did something about that.
    We had a little touch of that up North, you know, and our 
people did form a task force, and did go in and took them down. 
I haven't heard any more about it. So I do think you ought to 
really face this--face up to it now, and not just hire agents 
and make plans of how Agriculture's going to do it.
    This isn't your business. You don't know how to handle 
these guys at all. You're used to just normal trespassers in 
the national forest. Give it to people who are trained to do it 
now, and get it done.
    Otherwise, I would oppose that money. I think you should 
use the money we've got on other bills, and go get them now, 
not train more agents. Now, let me----
    Senator Feinstein. Can Mr. Rey respond?
    Senator Stevens. If you want to comment on that, we'll give 
you 5 seconds. Yes.
    Senator Feinstein. I'll give you more time if we let him 
respond.
    Senator Stevens. Yes.
    Senator Feinstein. Thank you.
    Mr. Rey. All of the major takedowns are task force 
takedowns involving ourselves, local law enforcement, and DEA, 
or whatever----
    Senator Stevens. Why are you involved in it at all? DEA 
does it. That's their job. We have UAVs, we have the National 
Guard, we have immigration people already trained. You don't 
need to train people to do that, Mark.
    Mr. Rey. The knowledge of the land and that sort of stuff 
is----
    Senator Stevens. Ah, that's baloney.
    Mr. Rey [continuing]. Somewhat important.
    Senator Stevens. Baloney. You just don't want other people 
on your force. Now cut that out and get them in there and take 
them down. They can be down in 2 or 3 months, and you know it. 
But you should not take this on in Agriculture.
    Senator Feinstein. Well, don't be intimidated by him. Say 
what you think.
    Mr. Rey. If the Congress wants to fund another agency to do 
this, we're----
    Senator Stevens. Don't need to fund them. They've already 
got the money. They got more money than they need right now.
    Senator Feinstein. It's not getting done.
    Senator Stevens. It's not being done. You didn't ask him. 
You didn't tell them, ``It's your job. Come take them down 
now.'' You should do that. You ought to go to the 
administration to demand it.

                 TONGASS LAND MANAGEMENT PLAN AMENDMENT

    Let me go to Alaska, if I can. I was wrong. My staff tells 
me I was wrong. We didn't get 140 million board feet last year. 
We got 50 million board feet out of a forest that used to cut 
1.5 billion. At Chugach, they don't cut any timber now, as I 
understand it. The timber cutting is supposed to be, under the 
Tongass Timber Reform Act, cut out of the Tongass.
    We've had one law office that's kept you all busy now for 
10 years. Are we going to get the Tongass LMP amendment process 
completed this year?
    Mr. Rey. Yes.
    Senator Stevens. Would it allow some cutting of timber next 
year?
    Mr. Rey. It will call for cutting of timber next year. That 
will have to be defended in court, as will the individual----
    Senator Stevens. Will you support an amendment to say ``No 
more challenging this plan in court''? It's been planned. You 
spent $40 million now to defend this plan over 10 years. The 
same lawyers are going to take you to court again.
    Meanwhile, we've got 32 different communities. Is it 32? 
Yeah, 32 different communities in southeastern Alaska dependent 
upon timber harvest. They can't do it. They're just--all the 
timber companies are going to collapse and fail if this goes to 
court again.
    Isn't it time now to say no more appeal of this?
    Mr. Rey. We've been working on the Tongass plan since 1979. 
There are Forest Service employees who started their career and 
have retired before we completed the Tongass Land Management 
Plan.
    I will commit to you that we will produce a Tongass Land 
Management Plan this fall, which will be the best plan that the 
Forest Service can produce.
    Senator Stevens. Well, meanwhile, the second generation of 
lawyers is in that law firm, and they're rich, and all the 
timber people are going bankrupt. Now, we've got to stop that 
litigation over this plan somehow.
    Mr. Rey. I agree.
    Senator Stevens. Good. Thank you. I'm going to offer such 
an amendment. There ought not to be another challenge to this 
plan. We had a plan agreed to. Those people represented by 
these lawyers were involved in settling the Tongass Timber 
Reform Act.
    From the day it was signed, they challenged it, although 
they helped get it passed. It's now been challenged, what are 
you talking about, 27 years, 28 years?
    Mr. Rey. 28 years.
    Senator Craig. Ted, I was a freshman congressman. I was 35 
years of age. I'm near retirement age now. The issue is still 
the same.
    Senator Stevens. Don't use the word retirement. I don't 
believe in that.
    Thank you very much.

                             FOREST LEGACY

    Senator Feinstein. You're very welcome. Senator Gregg?
    Senator Gregg. Thank you, Madam Chairman. Mr. Rey, Ms. 
Lago. There are a number of things I want to talk about, but I 
do want to express my concerns about the funding for Forest 
Legacy in the administration's proposal. Forest Legacy has been 
an extremely successful program, especially in the East.
    In the East, we are still interested in purchasing land and 
protecting land in significant proportions, and especially in a 
place like New Hampshire, which is in the path of the 
megalopolis.
    In the West, or some of the States, I can understand, 
you're overwhelmed with the Federal ownership percentage of the 
State. They feel they've got enough ownership, and probably 
would like to sell some.
    But in the East, we still feel very strongly that we need 
the funds to help us, especially Forest Legacy, leverage 
purchases and easements that make a huge difference in our 
ability to protect land which is critical and in the path of 
the megalopolis.
    Forest Legacy's a big part of that. Unfortunately, the 
Forest Legacy funds have dropped 71 percent in the proposal; 
and not just this year, over the last 4 or 5 years, 3 or 4 
years, even though the administration initially supported 
Forest Legacy with some robustness.
    So I regret this, and this year's request is really 
piddling, and----
    Senator Feinstein. Senator?
    Senator Gregg. Yes?
    Senator Feinstein. If I could, I'm just looking at the 
numbers. 2008 was 29,311. Enacted----
    Senator Gregg. I'm talking about the budget request.
    Senator Feinstein. Twenty-seven--we're going to put some 
money back----
    Senator Gregg. Great.
    Senator Feinstein [continuing]. In the Forest Legacy----
    Senator Gregg. Thank you.
    Senator Feinstein [continuing]. So we'll be happy to work 
with you.

                 WHITE MOUNTAIN NATIONAL FOREST FUNDING

    Senator Gregg. I appreciate that. On a specific issue, I 
wanted to ask you about the White Mountains. I believe the 
White Mountain Forest is the most visited national forest in 
the country. Is that correct?
    Mr. Rey. It's heavily visited, but it's not number one.
    Senator Gregg. Well, it's certainly got to be the most 
visited east of the Mississippi. I would presume it was the 
most visited--it was right up in the top two or three.
    Mr. Rey. It's probably in the top half dozen, I'd guess.
    Senator Gregg. We get hundreds of thousands of people using 
it because, of course, it's right there. I mean, it's 4 hours 
from New York, 1.5 hours from Boston, and it's a great and 
beautiful spot.
    Yet, I notice in the budget that the budget for the forest 
is being reduced by 10 percent, which will reduce the forestry 
programs there by 25 percent, reduce the recreational proposals 
by 15 percent, reduce the seasonal employees by 75 percent.
    It will eliminate the leverage programs we have relative to 
trail protection, and the permanent timber personnel are being 
reassigned to other resource areas. That, I presume, is a 
function of the need to spend money somewhere else.
    I guess my question is if you've got one of the more 
visited forests, no, the most visited forest east of the 
Mississippi, is it appropriate to target that as a place where 
you're reorienting your resources?
    Mr. Rey. I think I'd have to work with you to go over those 
numbers. I don't have forest by forest breakdowns with me 
today. I'm quite confident we wouldn't do anything to reduce 
the partnership dollars that we have coming in, because that's 
how we've boosted the support for some of our recreation 
programs.
    Senator Gregg. Well, actually, you are. They're going to be 
terminated, under the information I have, which I presume is 
accurate, because it's from the people who do the trail 
programs.
    Of course, a 75 percent reduction in temporary employees on 
the White Mountains is a seasonal event. It's used aggressively 
in the winter, but it's for skiing, and those are all private.
    But in the summer, of course, that's when most of the 
seasonal employees are hired. A 75 percent reduction is going 
to lead to problems. I mean, we've got some problems in that 
forest from people using it inappropriately anyway. We've had 
some serious issues with motorcycle gangs, for example.
    But generally, the experience of going to the White 
Mountains is a really good experience, and people pay for it. 
As you know, they pay a parking fee if they're going to hike 
there. I'm interested, what percentage of that parking fee 
stays with the White Mountains, and what percentage goes to a 
central office?
    Mr. Rey. Eighty-five percent stays with the White Mountain, 
under the legislation that Congress enacted in 2003.
    Senator Gregg. So 15 percent comes down here?
    Mr. Rey. Fifteen percent goes into the administration of 
the program, wherever that is required, but 85 percent stays on 
the ground.
    Senator Gregg. So if we were just to give them a 100 
percent--I'm not sure the numbers work out correctly--maybe the 
10 percent cut wouldn't impact them so much?
    Mr. Rey. It'd be a possibility.
    Senator Gregg. It's a $1 million reduction. In the context 
of this budget, obviously, not even an asterisk, even less than 
an asterisk, but it does have an impact.
    So I just wanted to raise the visibility of it to you. I 
recognize that there's tremendous pressure out West to fight 
fires, and that that's absorbing huge amounts of money. I 
recognize that we're our own worst enemies in the area of 
timber cutting, which was used to maintain the forests. We're 
basically at dramatically reduced revenues, as a result of what 
people represent--in many instances inaccurately--as 
environmental concerns.
    Some are correct, but 80 percent reduction in timber 
harvesting is not appropriate. In the context of those resource 
pressures, it does seem to me that when you've got a place like 
the White Mountains, which has a unique role in the forest 
system because it is really more of a visited forest and a 
recreational forest and a multi-use forest than most of your 
properties, certainly most of them east of the Mississippi, 
that we shouldn't be putting it on a path to failure.
    Mr. Rey. What I'd like to do is collect the data from the 
White Mountain and see if we can sit down and visit in greater 
detail.
    [The information follows:]

    Clerk's Note.--Under Secretary Rey offered to discuss funding for 
the White Mountain with Senator Gregg. Forest Service staff will 
schedule a meeting once the information has been collected.

    Senator Gregg. I appreciate your courtesy. Thank you.
    Mr. Rey. Thank you.
    Senator Feinstein. Thank you, Senator Gregg. Before turning 
to Senator Craig, I want to just make one comment.

                          PREPAREDNESS FUNDING

    The cut in your preparedness budget, 15 percent, is really 
unsustainable. In view of what we think is going to happen this 
fire season, despite what Ms. Lago said, there is no reason to 
believe that you can solve the problem with efficiency.
    I think we've got to add some money back here and find a 
way to do it, and I'd like to work with you in that. I am 
really concerned about this year, that we could have really 
catastrophic fire.
    The Esperanza Fire killed five people. I mean, what can 
happen this year is just dreadful. I think we have to be 
prepared. I can tell you this, that the California Governor, 
Governor Schwarzenegger, is moving with preparedness. We all 
know we expect a bad time, and once we know it, we have an 
obligation to do something about it.
    So I want to work with you on this particular number and 
try to change it. Senator Craig?
    Mr. Rey. We'd be happy to work with you.
    Senator Feinstein. Thank you.
    Mr. Rey. Two quick clarifications. This budget is 2008. The 
fire season we're in is 2007, so the money that you've already 
appropriated is what we're spending this year.
    Senator Feinstein. I understand. That's a good point.
    Mr. Rey. Then the other is that we do have the authority to 
move dollars from suppression to preparedness, and will do that 
if circumstances necessitate. But I would still be happy to sit 
down and go through the budget lines.
    Senator Feinstein. Okay. Senator Craig?
    Senator Craig. Thank you very much, Madam Chairman. A 
couple more questions of both of you, and I think I have one 
also for you, Ms. Lago.

                         GRAZING PERMIT BACKLOG

    There is a real problem with a backlog of expiring grazing 
permits that need to be renewed. Congress put a schedule in 
place for a renewal of these permits in the 1995 Rescissions 
Act. The schedule required NEPA to be completed on all 
allotments by 2010.
    Your budget justification says that accomplishments from 
1995 through 2003 were well below scheduled levels. It also 
indicates that significant amounts of work remain to be done to 
finish the NEPA reviews by the deadline.
    In the 2005 Interior Appropriations bill, the committee 
provided additional funds to address the backlog of allotments, 
also provided categorical exclusions from NEPA for grazing 
allotments that met certain conditions. There was a gap of 900 
allotments on this authority.
    How many allotment decisions have been made using this 
authority so far, Mark? Do you know? That'd be the one question 
of either of you. Is this authority helping to speed up the 
process? Does the authority need to be extended?
    We're fighting fire, but there are an awful lot of folks 
who are dependent upon the relationship they have with you for 
grazing in their livelihoods and in their businesses.
    Mr. Rey. To date, we've used the authority on 250 renewals. 
We have another 250 planned for fiscal year 2007. That would 
get us to 500. The cap was 900 renewals. So yes, it would be 
helpful to extend the authority 1 more year, and then we would 
use that time to try to do the other 400 renewals.
    The CE has been helpful in expediting this work. The CE is 
one of the reasons we think we'll still make the 2010 deadline, 
assuming we can use the CE beyond 2007.

                         CATEGORICAL EXCLUSIONS

    Senator Craig. Okay. Speaking of CEs, obviously, in October 
2005, a Federal District Court in the Earth Island Institute 
v., I think it's Ruthenbeck, was it----
    Mr. Rey. Ruthenbeck.
    Senator Craig [continuing]. Case held that the Forest 
Service had to provide notice, comment, and appeal on projects 
implemented through the use of the categorical exclusion. Of 
course, you know, Madam Chairman, this dealt with our Healthy 
Forests legislation.
    Last year, the chief testified before the subcommittee that 
this case delayed or cancelled 723 fuel reduction projects 
affecting over 1 million acres. Here we are, talking about 
worse fire scenarios, and we've got interest groups and courts 
shutting us down in some of those areas. What's the status of 
this litigation?
    How many projects are being affected by this ruling now, 
and is there anything you can do administratively to address 
this situation, or is a legislative fix needed so that the 
Forest Service is treated like every other agency when it comes 
to the use of categorical exclusions?
    Mr. Rey. At this point, I do not believe that there is a 
judicial remedy in this case. We have asked for an en banc 
review by the 9th Circuit. It's been denied. It's highly 
unlikely that the case will be resolved judicially.
    So even though we believe that the court wrongly 
interpreted the 1990 Appeals Reform Act, in terms of 
obligations that it imposed on the Forest Service, that 
nevertheless is where the litigation will stand.
    The only remedy to put the Forest Service back on the same 
footing as every other agency in how it complies with the 
National Environmental Policy Act would be for a legislative 
clarification of the 1990 Appeals Reform Act.
    Senator Craig. Okay. It would be through the 1990 Appeals 
Reform Act?
    Mr. Rey. That was the legislation that the court based the 
decision that----
    Senator Craig. Okay.
    Mr. Rey [continuing]. Unlike every other agency in the 
Federal Government, the Forest Service is obliged to offer an 
opportunity for notice, comment, and administrative appeal 
anytime it uses a categorical exclusion from the National 
Environmental Policy Act.
    That was a reading of the court interpreting the 1990 
legislation, wrongly in our judgment, but there you have it.
    Senator Craig. Okay. Thank you very much, Mark, Ms. Lago. 
Thank you very much, Madam Chairman.
    Senator Feinstein. Thank you, Mr. Rey. Thank you----
    Senator Craig. I have other questions I'll submit for the 
record.
    Senator Feinstein. All right. Excellent. Thank you, Ms. 
Lago.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Service for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
    Question. The California Department of Conservation Estimates that 
there are 47,000 abandoned mines in the State, including 7,000 on 
National Forest Lands. These sites create physical hazards, contaminate 
watersheds in my State and throughout the West, and create physical 
hazards to members of the public recreating on National Forest System 
lands. Your fiscal year 2008 budget reduced funding for the Minerals 
and Geology activities by 16 percent, from $84 million to $71 million. 
What impact will these budget cuts have on the number of sites targeted 
for cleanup in fiscal year 2008, both in California and nationwide?
    Answer. Cleanup of contaminants and mitigation of physical safety 
hazards are addressed in the ``Manage Environmental Restoration'' 
(Restoration), and ``Mitigate Abandoned Mine Land Safety Risk Feature'' 
(Safety) activities in the Minerals and Geology Management Budget Line 
Item.
    The Forest Service Budget Justification on page 9-56 displays the 
changes in budget and outputs in fiscal year 2008 as compared to fiscal 
year 2007 for these two activities. A decrease in budget does not 
easily translate into numbers of sites because of the wide variation in 
site cleanup costs, as well as the number of years it takes to complete 
a project. For that reason, the most accurate measure of the change in 
outputs for both California and the Nation would be the percentage 
decrease in budget for these two activities, which is 6 percent and 17 
percent, respectively, for Restoration and Safety.
    Question. How are you prioritizing which mine sites to clean up? 
Have you developed an estimate of how much funding you would need to 
remediate all abandoned mine sites on National Forest System lands?
    Answer. Hazardous and non-hazardous cleanup projects are submitted 
by each Forest Service regional office along with narratives describing 
the costs and benefits of each. Projects submitted are prioritized at 
the national level using criteria that includes; human health and 
safety, environment protection, public/private partnerships, and public 
interest.
    The Forest Service does not have a current estimate for remediation 
of all abandoned mine sites on National Forest System lands. However, 
it is important to note that previously unknown abandoned mines sites 
are continually being discovered, and that only a small percentage of 
known sites have clean-up designs and associated costs established.
    Question. I have been extremely concerned about the Forest 
Service's slow pace in using the Healthy Forest Restoration Act 
authorities provided by Congress to increase the efficiency of your 
hazardous fuels reduction program. I have also raised concerns that you 
are not using these authorities in California. How many acres in 
California will the agency treat using HFRA authorities in fiscal year 
2007 and fiscal year 2008? What percentage of total fuels treatments 
will be accomplished using HFRA in fiscal year 2007 and fiscal year 
2008? What steps is the agency taking to ensure that these authorities 
are actually being used?
    Answer. In fiscal year 2008, not less than 40 percent of program 
funding will be used on projects that contribute to the goal of 
improving the condition class on at least 250,000 acres across the 
Nation by the end of fiscal year 2008 through the use of Healthy Forest 
Restoration Act and Healthy Forests Initiative authorities. The Forest 
Service is committed to using all available authorities to reduce the 
risk to communities and resources from wildland fire. Healthy Forest 
Restoration Act authorities are an important set of tools available to 
land managers.
    In fiscal year 2007 the Forest Service and Department of Interior 
anticipate treating hazardous fuels on over 4 million acres with 
Federal funding using all available authorities. The Forest Service is 
expanding use of HFI and HFRA authorities throughout the country with 
an 88 percent increase in acres treated under the authorities from 
fiscal year 2005 to fiscal year 2006. To date, the Forest Service has 
treated over 115,000 acres in fiscal year 2007, more than 6,000 of 
which are in California. The Pacific Southwest Region has placed 
increased emphasis on HFRA projects, and continues to work with 
communities to develop the Community Wildfire Protection Plans (CWPP) 
necessary to proceed with HFRA authorities. As more communities 
implement CWPPs, the Forest Service can expand use of HFRA authorities 
in California and throughout the country.
    In 2006, the Forest Service conducted a review of Healthy Forests 
and associated authorities including Stewardship Contracting. The 
review team found widespread agreement among both Forest Service and 
partners that while useful in many scenarios, HFI and HFRA authorities 
were not appropriate or feasible in many situations. The agency is 
proceeding with implementation of many of the recommendations made by 
the review team. A copy of the review report will be made available to 
Congress following Departmental approval.
    Question. Your budget calls for decisions on whether to mobilize a 
number of preparedness resources, including helicopters, hotshot crews 
and smokejumpers, to be made at the national rather than the regional 
level starting in fiscal year 2007?
    Who will be in charge of deciding to deploy these resources?
    Answer. An interagency delegation of authority is being finalized 
for members of the National Multi-Agency Coordinating Group (NMAC) to 
implement the national mobilization and prioritization of these 
resources. NMAC members include representatives from the four DOI 
bureaus, the Forest Service, and the National Association of State 
Foresters.
    These resources may be deployed locally by the host unit if no 
higher geographic area or national priority is pending. Deployment at 
the geographic area level will be determined by the geographic area 
multi-agency coordinating groups.
    Question. What is the proposed timeline for nationalizing these 
resources?
    Answer. Hotshot crews, smokejumpers, Type 1 helicopters, and a 
portion of the Agency's Type 2 helicopter fleet are currently managed 
as national resources. For 2007, our remaining Type 2 helicopters will 
be converted from local to national resources for the impending fire 
season. Additional analysis will be required before converting our 
local Type 3 helicopters to national resources, this analysis will 
occur prior to the 2008 western fire season.
    Question. How will you balance local concerns against national 
needs?
    Answer. Consistent with our policy of allocating resources on the 
basis of risk mitigation, control of these resources will transfer to 
higher levels as the national preparedness level escalates. Priorities 
for resource deployment will be based on anticipated initial attack 
requirements, Predictive Services analysis, and decision support tools.
    Question. The agency will spend $301 million on fuels treatments in 
fiscal year 2007--a significant investment in the face of other budget 
constraints. How does the Forest Service measure the amount of fire 
risk generated through these fuels treatments?
    Answer. We do not have a system designed to track fire risk 
generated, as our programs are aimed at mitigation of fire risk through 
the reduction of hazardous fuels. Often our restoration and fuel 
reduction objectives require multiple entries to achieve. There have 
been cases in which the first treatment puts fuel on the ground that 
temporarily increases fire risk. That risk is short lived and balanced 
by the long term benefit of the fuel reduction treatments. To enter a 
treatment in our accomplishment reporting system, it must meet the 
definition of hazardous fuel reduction. In 2006, the Forest Service 
reduced fire risk on approximately 2.5 million acres from management 
actions with a direct or indirect benefit of fuels reduction.
    Question. How much funding is proposed in your fiscal year 2008 
budget for fuels reduction related to the bark beetle infestation in 
the San Bernardino National Forest? How much funding is proposed to 
address infestation and fire risk on adjacent State or private lands?
    Answer. The fiscal year 2008 allocation to the San Bernardino will 
depend on the final allocation to Region 5 and reflect consideration of 
regional priorities. We anticipate that expected funding for the San 
Bernardino bark beetle infestation will be at or above historical 
levels.
    Question. I am concerned that California fuels treatments are at a 
disadvantage because the region has higher unit costs due to the 
abundance of wildland-urban interface and other factors. Has the Forest 
Service examined what factors contribute to higher unit costs in the 
State? Has the agency taken steps to try to reduce the unit costs for 
California fuels treatments?
    Answer. High unit costs within the region are a significant concern 
for the administration. The region has conducted several region wide 
assessments of unit costs and visited a forest to conduct a specific 
unit cost review and develop a strategy for reducing unit costs. A 
significant part of the cost of activities in the region is the general 
cost of doing business in California. A typical vegetation mastication 
contract is over $500/acre. Typically the California program is greater 
than 60 percent mechanical treatments. Some of the treatments on the 
San Bernardino have exceeded $2,500/acre. The only choice is whether or 
not to proceed with implementation of the treatment. We will continue 
to re-examine the program mix, choices of project areas, and 
opportunities for modification of objectives to reduce contract costs.
    Question. It is critical that the Forest Service has incentives in 
place for the agency to fund the highest priority fuels treatments, 
regardless of unit costs. What role do unit-cost measures play when you 
are allocating fuels dollars? How does the agency balance cost-
effectiveness with other priorities?
    Answer. For fiscal year 2007, the Forest Service developed the 
Ecosystem Management Decision Support model, which will assist with 
establishing national priorities and allocation of funds. This model is 
under continuing development and enhancement for fiscal year 2008 to 
incorporate improved data on wildfire potential and consequences of 
problem fires, particularly the wildland-urban interface. The model 
will be used in fiscal year 2008 for national- to regional-scale 
strategic planning, broad ecological assessments, and resource 
allocation. The model emphasizes areas with the highest potential for 
problem wildfire, consequences, and greatest opportunity for efficient 
and effective treatments while meeting multiple objectives. Based upon 
this analysis, the Forest Service will identify national priorities 
within the fuels program and focus funding on those priorities, 
consider performance in risk reduction through systematic risk analysis 
tools for fire hazard analysis and fuels treatment implementation, and 
assess project criteria for WUI fuels treatments. Average Regional unit 
cost comes into effect in allocation of funding.
    The objective in the allocation is to distribute funding to the 
highest priority projects while optimizing accomplishments. In essence, 
the agency must provide optimal benefits at an efficient and effective 
level of cost as reflected in a risk-informed decision process. 
National program allocations and local project selections would attempt 
to optimize wildfire risk mitigation (i.e., net benefits) over time by 
choosing projects that provide cost-effective risk reduction. Having a 
risk-informed approach provides a path forward for both national and 
local decision-makers that is suitable in a variety of circumstances, 
including where there exist differing State and local government codes 
or where there are numerous fire protection alternatives. It also 
recognizes the ecological benefits associated with wildfires occurring 
within normal ranges of intensity.
    Question. How will you improve incentives for local decision-makers 
to choose higher priority treatments, even when they are more 
expensive?
    Answer. Both national and local decision makers seek cost-effective 
risk reduction. Local decision-makers focus on a balance between high 
priority, high cost work near communities and lower cost restoration 
and maintenance treatments that will restore sustainability in the long 
term. The selection of projects is accomplished in collaboration with 
local communities, partners and stakeholders and includes balancing 
values at risk with costs. Decision makers participate as partners in 
the formulation and execution of community wildfire protection plans 
(CWPPs) that help to prioritize fuel treatment and restoration 
activities. These plans describe the common vision between Federal land 
managers and adjacent communities on how we may work together to meet 
our objectives on both sides of the property line. Those projects 
determined with the use of the CWPP become eligible to use streamlined 
planning protocols made available under the Healthy Forest Restoration 
Act, with fewer action alternatives to analyze, reducing planning 
workloads.
    Question. How much funding does your fiscal year 2008 budget 
contain to support the activities of the California Fire Safe Councils, 
and how does this compare to fiscal year 2007 levels? How much funding 
in your budget will go toward community wildfire protection planning in 
California in fiscal year 2008?
    Answer. A portion of the funding to be allocated to the Pacific 
Southwest Region is available, as the California State Forester deems 
appropriate, to fund California Fire Safe Councils. In fiscal year 2007 
approximately $1.9 million was made available to the California Fire 
Safe Councils. There is no set amount established or programmed for 
community wildfire protection planning in any of the States. Our 
program direction will include community wildfire protection planning 
as a high priority for funding in 2008.
    Question. On March 10, 2007, the Riverside Press-Enterprise ran a 
story regarding increased illegal dumping in the San Bernardino 
National Forest. According to the story, there has been a dramatic 
increase in the amount of illegal dumping in the forest as fees at 
public dumps and recycling centers has increased. The story also notes 
that the problem is no longer limited to dumping household garbage, but 
rather ``trash by the trailer load. Truckloads of old tires. Fifty cans 
of paint at a time. Assortments of junked refrigerators and recliner 
chairs, mattresses and TV sets.'' The San Bernardino National Forest 
may be at risk for dumping more because of its large residential 
population and proximity to urban areas. Have you assessed the 
situation, and do you have an estimate of how much funding will be 
required to clean up the forest? How much funding with the Forest 
Service devote to these clean-up efforts in fiscal year 2007?
    Answer. The San Bernardino National Forest has not assessed the 
forest dumping situation. In fiscal year 2007, approximately $250,000 
will be spent on the San Bernardino to address unauthorized and illegal 
dumping in key areas located in the urban interface and watersheds. 
Increased funding levels requested in the President's fiscal year 2008 
budget justification for law enforcement will be used to prevent 
further and future dumping from occurring. Additional officers should 
help deter and eliminate future dumping. In addition, collaboration 
with local partners and volunteers will assist the Forest in cleanup 
efforts.
    Question. Are there other forests, especially in California, where 
you have seen significant increases in illegal dumping? What measures 
is the Forest Service taking to prevent dumping on national forests in 
California?
    Answer. This is strictly a reactionary/responsive enforcement 
action. In the rare cases that we have a ``pattern'' we have scheduled 
officers to try to catch the individuals in the act. But that is rare. 
Prevention requires a prolonged presence. Our limited presence is most 
often concentrated where people are. Illegal dumping does not usually 
take place in those locations--that's why it's successful. Our best 
prevention tool is patrol ``being in the right place at just the right 
time''. Officers will look through debris to see if we can find any 
evidence of ownership, etc, and every once in a great while we'll find 
some household mail with an address that allows officers to conduct 
follow-up contacts.
    Question. Public Law 109-154, the Public Lands Corps Act, 
authorizes the Secretary of Agriculture to enter into contracts and 
cooperative agreements with our Nation's Service and Conservation Corps 
for projects that reduce fire risk. What steps has the Forest Service 
taken to implement this act, and what steps does the agency plan to 
take in fiscal year 2007 and fiscal year 2008?
    Answer. The Forest Service has a long-standing and rich history of 
working with State and local Service and Conservation Corps throughout 
the Nation. Public Law 109-154 allows the agency to continue this rich 
tradition and to develop even greater Partnerships.
    The Public Land Corps Healthy Forests Restoration Act of 2005 
amends the act governing the youth conservation corps laws to include 
provisions for ``priority projects'' that meet the purposes of HFRA. 
Essentially, it allows the FS and DOI to give preference to certain 
youth and conservation corps to carry out projects that meet the 
purposes of HFRA.
    The FS supports opportunities for qualified youth and conservation 
corps to further the goals of the Healthy Forests Restoration Act when 
the corps have the appropriate skills and capabilities to safely 
complete the projects under the provisions of the Public Land Corps 
Healthy Forests Restoration Act.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig
                           fire preparedness
    Question. Your budget proposes to create a new appropriation called 
Wildland Firefighters. These funds were previously funded within the 
Preparedness line item of the overall fire budget. When I add what you 
are proposing for this new appropriation to what remains of the 
traditional preparedness budget it looks to me like a cut of about $95 
million for overall fire preparedness.
    What will be the impact on our fire readiness capability?
    Answer. The agency will have approximately 10,010 firefighters in 
fiscal year 2008 as compared to 9,550 firefighters in fiscal year 2006; 
however other resources will be reduced commensurate with the agency's 
transition to Appropriate Management Answer. The agency will focus and 
prioritize resources, such as engines, to the areas where the highest 
risk exists. The following displays planned resource changes:

------------------------------------------------------------------------
                                                Fiscal years
                                  --------------------------------------
             Resource                  2006         2007         2008
                                      actual      planned     estimated
------------------------------------------------------------------------
Firefighters \1\.................        9,550       10,010       10,010
    Type I Interagency Hot Shot             67           67           67
     Crews (20 person)...........
Other Firefighters:
    Smoke Jumpers................          277          277          190
    Prevention Technicians.......          419          399          277
Engines..........................          940          950          726
Water Tenders....................           57           63           48
Dozers & Tractor Plow Units......          144          152          119
Type I, II, and III helicopters             80           84           65
 for local mobilization..........
Type II helicopters for national             7            7            5
 mobilization....................
    Airtankers...................           18           16           14
    Type 1 helitankers/                     15           15            8
     helicopters.................
------------------------------------------------------------------------
\1\ Includes IHC crews.

    Question. Won't this lower the agency's initial attack success rate 
and lead to more catastrophic fires?
    Answer. The agency anticipates a 2-5 percent reduction in initial 
attack success and an increase in acres burned in fiscal year 2008, 
which will be consistent with our transition to a risk informed 
performance based fire suppression system.
    This strategy will minimize cost and recognize contributions of 
lower intensity wildfires to healthy forests. Initial attack capability 
will remain a priority for the agency and as fire activity and risks 
elevate, existing resources may be supplemented to enhance capability.
    Question. How does it make sense to cut money for firefighter 
training and equipment following the worst fire season we have ever had 
in terms of acres burned?
    Answer. The Wildland Firefighter Appropriation provides adequate 
funding to ensure continued firefighter training. In fiscal year 2006 
approximately $30 million was spent on wildland fire training, we 
anticipate a similar amount in fiscal year 2008. While some large 
firefighting equipment, such as engines, will be reduced, adequate 
funding will be provided to ensure field and safety equipment is 
available for firefighters. Compared to earlier years, the 9.9 million 
acres burned in 2006 was indeed a large amount but still significantly 
lower than the numbers of acres burned earlier in the 20th Century, 
including an average of 35 million acres per year in the 1920s and 38 
million acres per year in the 1930s.
                        forest planning process
    Question. Under the old forest planning rules, the time and expense 
to complete Forest Plans became incredibly expensive. Plans designed to 
last for 15 years were taking 6-8 years to complete and many millions 
of dollars. This Administration streamlined that process and I see that 
your budget reflects a reduction of $5 million or roughly 10 percent of 
the total budget for the program.
    Can you tell us what your experience is so far under the new 
planning rules? For example, how much less are individual plans costing 
now than before?
    Answer. The agency has not yet completed an approved plan under the 
2005 Planning Rule. In addition the agency's financial management 
system does not track actual expenditures to the activity level. Thus, 
even if we had an approved plan under the new rule, it would be 
difficult to estimate the costs of producing that plan and to compare 
those costs with those from revisions conducted under the 1982 planning 
rule. However, anecdotal evidence suggests that the costs of revising a 
plan under the new rule are lower than those incurred under the 1982 
rule.
    In addition to having the option of using streamlined NEPA 
procedures, forest and grassland supervisors have found the 2005 
planning rule identifies and encourages the use of much more engaging 
procedures to involve the public in land management planning. Rather 
than relying on predominantly a ``notice and comment'' method for 
public involvement, the 2005 planning rule improved the planning 
process by collaboratively involving the public. The public is offered 
more opportunities to help with existing condition and trend 
evaluations, developing guidance for land management plans, and 
developing monitoring programs for the plan. While a ``notice and 
comment'' opportunity still exists with the required 90-day comment 
period and 30-day objection period, the public has many opportunities 
to be involved in the planning process prior to these comment/objection 
periods.
    Question. Quite a number of Forest Plans have gone beyond their 15 
year revision date. Are the new rules helping address this backlog?
    Answer. Although the 2005 planning rule is expected to reduce the 
time and cost associated with revising a forest plan, the rule has not 
been in place long enough to affect the backlog of Land and Resource 
Management Plan revisions. Implementing the new rule has taken longer 
than expected because of the need for many units to engage in lengthier 
transition tasks while changing over to the new rule.
    In addition, the new rule has been litigated. The United States 
District Court for the Northern District of California has enjoined the 
2005 planning rule. This will delay some plan revision approvals. The 
Forest Service has started the rulemaking process to approve a new 
planning rule.
                           recreation budget
    Question. I see that your budget for the recreation program is 
decreased by over $27 million--that's a 10 percent cut. In many of our 
Western States, recreation is helping to reduce some of the impacts 
from reduced harvesting on our national forests by providing another 
means to attract investment and dollars into rural communities. This 
seems like a large cut for this program.
    What impacts will there be on effectively managing recreation 
facilities, administering special use permits for various private 
operators, and providing interpretive services for visitors?
    Answer. The proposed reduction in funds will result in a number of 
program reductions, including shortened seasons at some developed and 
dispersed recreation sites; reduced hours for visitor information 
services with minimal staffing; processing new special use permit 
applications would be limited; restoration and adaptive reuse of 
heritage properties for interpretation, recreation, and tourism will 
occur at very low levels; and a limited number of wilderness rangers 
will be available to provide visitor information and education. 
However, recreation resources will continue to be directed towards 
efforts that maximize program delivery, including strengthening 
partnerships which are vital to accomplishing stewardship work on the 
ground. Additionally, the Recreation Site Facility Master Planning 
process is working to analyze our existing recreation site inventories 
to identify sites that are most used and most valued by the public, 
allowing the agency to determine where to prioritize recreation site 
investments in response to public needs.
                            grazing permits
    Question. There is a real problem with a backlog of expiring 
grazing permits that need to be renewed. Congress put a schedule in 
place for the renewal of these permits in the 1995 Rescissions Act. The 
schedule requires NEPA to be completed on all allotments by 2010. Your 
budget justification says that accomplishments from 1995 through 2003 
were well below scheduled levels. It also indicates that significant 
amounts of work remain to finish the NEPA reviews by the deadline.
    In the fiscal year 2005 Interior appropriations bill, the Committee 
provided additional funds to address the backlog of allotments and also 
provided a Categorical Exclusion from NEPA for grazing allotments that 
met certain conditions. There was a cap of 900 allotments on this 
authority.
    How many allotment decisions have been made using this authority so 
far?
    Answer. The Rescissions Act schedule identifies 6,886 allotments 
that need NEPA based analysis and decisions by the end of CY 2010. At 
the end of fiscal year 2006, 4,616 allotments had NEPA completed and 
management decisions made. To date, approximately 250 allotment 
decisions have been completed using the Categorical Exclusion (CE) 
authority provided in the fiscal year 2005 Interior and Related 
Agencies Appropriations Act. Another 250 CEs are planned for fiscal 
year 2007.
    Question. Is this authority helping to speed up the process?
    Answer. Yes. The CE authority helped the Forest Service complete 
more allotments on the Rescissions Act schedule then without it. On 
those allotments that meet the established criteria, the Forest Service 
was able to reduce the time and effort necessary to complete the NEPA 
process. In addition, the CE authority has allowed the Forest Service 
to focus funding and staffing on those allotments with more complex 
management issues.
    Question. Does this cap need to be raised so you can get more 
allotments processed that meet the standard for use of this authority?
    Answer. No. The 900 allotment cap appears to be sufficient for the 
number of allotments that meet the established criteria. However, an 
extension of the authority to September 30, 2008, would be very useful 
so that the remaining 400 CEs would continue to be available should 
they be needed.
    Question. Will you be able to complete the NEPA on these allotments 
consistent with the Rescissions Act schedule?
    Answer. The Forest Service continues to place a strong emphasis on 
allotment NEPA in order to complete the Rescissions Act schedule. It is 
our intention to complete the NEPA by the scheduled time frame. 
However, from fiscal year 2007 through fiscal year 2010 the agency will 
need to further accelerate the process to complete NEPA on an average 
of over 500 allotments per year in order to meet the Rescissions Act 
schedule.
                             timber budget
    Question. For 2007, the timber budget was increased by roughly $33 
million. The increase was to fully fund the implementation of the 
timber sales piece of the Northwest Forest Plan. Your fiscal year 2008 
budget retains this level of funding for the Plan.
    I can acknowledge that promises were not kept to the timber 
industry in the Northwest Forest Plan, but I wonder whether such a 
large increase primarily aimed at 2 regions of the Forest Service 
covering Washington and Oregon is the most efficient use of timber 
dollars.
    Aren't there still major litigation problems with timber sales in 
Oregon and Washington?
    Answer. The agency does not expect that litigation will 
significantly affect the timber sale program under the Northwest Forest 
Plan, and the volume needed to meet the Settlement Agreement. In fact, 
there is a good deal of support for thinning in late successional 
reserves, where much of the treatments need to be conducted.
    Question. Could these funds be allocated in a fashion where more 
Regions could benefit and would have a better chance to maximize actual 
harvest volumes?
    Answer. The administration has made a commitment to fully fund the 
Northwest Forest Plan, and the proposed Forest Products allocations to 
Regions 5 and 6 are necessary to achieve that commitment. The unit 
costs to produce timber volume under the Northwest Forest Plan are some 
of the lowest in the agency, so shifting funds to other Regions would 
likely reduce our capability to produce timber.
                         categorical exclusion
    Question. In October of 2005, a Federal District court in the Earth 
Island Institute v. Ruthenbeck case held that the Forest Service had to 
provide notice, comment, and appeal on projects implemented through the 
use of Categorical Exclusions. This judicially created requirement 
regarding CE's applies to no other agency in the Federal Government.
    Last year, the Chief testified before this subcommittee that this 
case delayed or canceled 723 fuels reduction projects affecting over 1 
million acres. What is the status of this litigation?
    Answer. Injunctions issued in Earth Island Institute v. Ruthenbeck 
(E.D. Cal.) and Wilderness Society v. Rey (D. Mont.) remain in effect, 
as do the Chief's instruction letters issued after each ruling.
  --Categorically excluded activities listed by the court (timber sales 
        and 10 other types of activities) are subject to notice, 
        comment and appeal; and
  --Eligibility to appeal is to be determined under the 1993 version of 
        36 C.F.R. 215.11(a)--not 36 C.F.R. 215.13(a)(2005).
    A brief status report on the three nationwide challenges to the 
project appeal regulations follows:
Earth Island Institute v. Ruthenbeck
    The District Court's injunctive order remains in effect. The Ninth 
Circuit declared eight claims were not ripe for judicial review, but 
affirmed the District Court's application of the Appeal Reform Act to 
certain categorical exclusions (CE). The agency petitioned for a 
rehearing with a suggestion for rehearing en banc seeking reversal of 
the adverse portion of the ruling. The petition was denied by the Ninth 
Circuit June 8, 2007.
Wilderness Society v. Rey
    The District Court's injunctive order remains in effect. An appeal 
was filed, but briefing in this case was stayed pending action by the 
Ninth Circuit on the Forest Service's petition for rehearing in Earth 
Island v. Ruthenbeck. It is expected that briefing will now move 
forward.
Wildlaw v. USDA
    No injunction was issued. All Appeal Reform Act issues were 
dismissed as unripe facial challenges. The Forest Service was affirmed 
on NEPA claims. The deadline for filing notice of appeal was March 27, 
2007.
    Question. How many projects are being affected by this ruling now?
    Answer. We do not have a current survey of projects being affected.
    Question. Is there anything you can do administratively to address 
this situation or is a legislative fix needed so that the Forest 
Service is treated like every other agency when it comes to the use of 
categorical exclusions?
    Answer. The courts' rulings relate to the Appeal Reform Act and the 
types of activities subject to administrative appeal under the act. The 
agency clarified through its 2005 appeal regulations that CEs are not 
subject to appeal under the Act and thus do not require notice, comment 
and opportunity for appeal. However, the courts have rejected that 
interpretation. The courts' rulings require notice, comment and 
opportunity for appeal of several types of categorically excluded 
activities. This undermines the purpose of CEs established through the 
National Environmental Policy Act implementing regulations--to reduce 
documentation requirements for project analysis and decision-making for 
projects that typically have no significant effects.
    There is no further administrative action the agency can take to 
address the effects of these court rulings.
                  wildland fire outlook for this year
    Question. A number of fires have been in the news already this 
year, particularly in the chairman's home State. Drought is persisting 
in much of Interior West. I know that it is very early for predictions 
but it concerns me that if this year's fire season is as bad as last 
year's your agency could be $750 million short of what it needs to 
fight fires and will be forced to borrow massive amounts of money from 
other programs.
    When GAO looked at this fire borrowing problem recently, it 
concluded that ``the borrowing of funds caused numerous project delays 
and cancellations, strained relationships with State and local agency 
partners and disrupted program management efforts. In some cases, these 
cancellations and delays increased costs and the time needed to 
complete the projects.''
    Can you give us some sense of how severe you expect this fire 
season to be based on what you know now?
    Answer. Most of the eastern, central, and northwestern United 
States has a normal outlook for wildland fire potential. A portion of 
the Southwest is predicted to have a below-normal wildland fire season. 
This area includes northeastern New Mexico, and small parts of 
southeastern Colorado, western Oklahoma, and northern Texas, where it 
borders New Mexico. Wildland fire potential is expected to be higher 
than normal across much of the Southwest, California, portions of the 
Great Basin, the Northern Rockies, a small portion of the Northwest, 
Alaska, and the Southeast. The amount of precipitation many areas 
receive in the early summer will determine the severity of the fire 
season.
    Predictive Services' May through August outlook is available at: 
http://www.nifc.gov/nicc/predictive/outlooks/season_outlook.pdf
    Question. The supplemental appropriations bill that we are 
considering on the floor this week has $400 million for the Forest 
Service for firefighting. Is it your sense that these funds may very 
well be needed by the agency to pay for firefighting and avoid the 
massive borrowing that has occurred in recent years?
    Answer. Current funding is sufficient for foreseeable suppression 
needs.
                           personnel cutbacks
    Question. As I mentioned in my opening statement, if we accept this 
budget as proposed, there will be a cut of over 2,000 Forest Service 
employees. That's over 6 percent of the work force. I understand the 
need for belt tightening given the budget climate that we're in, but it 
strikes me as a little odd that at the Department of the Interior, 
other land management agencies like the BLM and the Fish and Wildlife 
Service will face virtually no cutbacks in personnel. The Park Service 
is slated to go up by over 2,000 employees.
    I believe the important role that the Forest Service plays in rural 
areas that rely on grazing, recreation, and timber could be harmed by 
such cutbacks. I'm also concerned about how we address the massive 
forest health problems that we are facing with fewer boots on the 
ground.
    Can you explain this difference in treatment between your budget 
and those of the land management agencies at the Department of the 
Interior?
    Answer. The priorities reflected in the requests for the Department 
of the Interior bureaus and the Forest Service with regard to proposed 
staffing levels for fiscal year 2008 are based on the President's 
Budget request.
    Question. How will these cutbacks affect the agency's mission?
    Answer. We know that our personnel costs are increasing. We are 
taking action to respond to this. We are focusing on reducing operating 
costs at the WO/RO/Northeastern Area, which may result in a reduction 
of personnel at these levels of the organization. Taking this action 
will enable us to invest more resources toward mission delivery through 
enhanced services to the public by agency field units.
    Question. Are there really that many efficiencies that can be 
achieved at the Forest Service that would warrant such a reduction of 
employees?
    Answer. In our best judgment, the answer is yes. It is critical to 
the Forest Service to reduce costs at the WO/RO/Northeastern Area so to 
provide opportunities to enhance program delivery and services on the 
ground to benefit the public.
                         wilderness management
    Question. I have a question regarding the agency's position on 
recommended wilderness management. It seems that different Regions 
treat recommended wilderness differently and as you know I have two 
forest service Regions in my State.
    NFS: Does the agency believe it is their job to designate 
wilderness?
    Answer. No, the agency studies areas to determine whether they have 
wilderness characteristics and then determines their eligibility and 
decides whether to recommend their designation to Congress. These 
analyses occur during the forest planning process and the forest plans 
may then contain a recommendation for wilderness designation. However, 
only Congress has the power to designate wilderness areas.
    Question. If not, would the agency attempt to restrict historical 
mechanized access to recommended wilderness areas even though it is 
congress' job to designate wilderness?
    Answer. Once an area has been recommended to Congress for 
wilderness designation, the agency has the responsibility to maintain 
its wilderness character until Congress has had the opportunity to 
decide whether to designate it. Maintaining its wilderness character 
while an area is being considered by Congress may, in some cases, mean 
limiting the types of use an area receives, including mechanized use.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
    Question. I believe that Forest Service staff on-the-ground in 
Colorado are working hard, and we appreciate the funding that was 
shuffled last month, but the final fiscal year 2007 timber and fuels 
program funding is still less than the national forests in Colorado 
need to address the bark beetle epidemics.
    Are you willing to work with me on some meaningful strategies to 
address the bark beetle epidemic and the risk of catastrophic fire to 
see if there isn't a way to get more funding to the national forests in 
Colorado this year, and in future years, until we've dealt with the 
problems to the best of our ability?
    Answer. Yes, we are interested in working with you Senator as we 
have in the past, on meaningful strategies to address bark beetles.
    Question. Is it true that ``fully funding the Northwest Forest 
Plan'', as proposed in the President's budget, will require reductions 
in timber and fuels funding to Colorado's national forests?
    Answer. To the extent possible we will try to maintain level timber 
and fuels funding from for the other regions in fiscal year 2008.
    Question. I strongly support spending money proactively on 
hazardous fuels projects if it will reduce the risk of forest fires and 
the associated risks to watersheds, communities, and residents. 
However, I'm concerned that some of the acres treated aren't the 
highest priority acres. From your reviews of the hazardous fuels 
program, is there room to improve what's being done on-the-ground, and 
how are you working toward that objective?
    Answer. The agency is continually looking to improve efficiency and 
effectiveness of program delivery. Based on preliminary results from 
the 2006 Healthy Forests Review, the agency feels that greater 
efficiency will be gained through increased use of Stewardship 
Contracting authorities and greater coordination with communities 
through the Community Wildfire Protection Plan process. The Forest 
Service anticipates that we will be in better position to address high 
priority projects in an efficient manner through the use of these two 
initiatives and other relevant authorities. The agency works to balance 
the high costs of some projects through lower cost maintenance 
treatments to both protect earlier investments and meet National 
resource and community protection goals.
    For fiscal year 2007, the Forest Service developed the Ecosystem 
Management Decision Support model to assist with establishing national 
priorities and allocation of funds. This model is under continuing 
development and enhancement for fiscal year 2008 to incorporate 
improved data on wildfire potential and consequences of problem fires, 
particularly the wildland-urban interface. The model will be used in 
fiscal year 2008 for national- to regional-scale strategic planning, 
broad ecological assessments, and resource allocation. The model 
emphasizes areas with the highest potential for problem wildfire, 
consequences, and greatest opportunity for efficient and effective 
treatments while meeting multiple objectives. Based upon this analysis, 
the Forest Service will identify national priorities within the fuels 
program and focus funding on those priorities, consider performance in 
risk reduction through systematic risk analysis tools for fire hazard 
analysis and fuels treatment implementation, and assess project 
criteria for WUI fuels treatments.
    The objective in the allocation is to distribute funding to the 
highest priority projects while optimizing accomplishments. In essence, 
the agency must provide optimal benefits at an efficient and effective 
level of cost as reflected in a risk-informed decision process. 
National program allocations and local project selections would attempt 
to optimize wildfire risk mitigation (i.e., net benefits) over time by 
choosing projects that provide cost-effective risk reduction. Having a 
risk``) informed approach provides a path forward for both national and 
local decision-makers that is suitable in a variety of circumstances, 
including where there exist differing State and local government codes 
or where there are numerous fire protection alternatives. It also 
recognizes the ecological benefits associated with wildfires occurring 
within normal ranges of intensity.
    Question. In addition, how successful has the Forest Service been 
at integrating multiple budget line items, for instance hazardous 
fuels, forest health, and timber sales funding, into individual 
projects and getting ``more bang for your buck?''
    Answer. Integration of budget line items is occurring at all levels 
in the organization. The Washington Office Directors of the vegetation 
treatment programs (Fire & Aviation Management, Forest Management, 
Range Management, Forest Health Protection, Wildlife Management, etc.) 
are working at the National level to enhance coordination across 
program areas and foster greater integration of allocations to the 
Regional level. For fiscal year 2008, the Directors developed new 
allocation methodologies that incorporate integrated objectives.
    Hazardous fuels, forest health, wildlife and forest management 
coordinate the budget line item allocations to each region. In 
addition, the construction and landline location line items are 
coordinated to support these vegetation treatments. This exercise 
delivers a total package of vegetation treatments for regions to build 
integrated programs.
    Integration of projects has been increasing every year. The ability 
to use multiple funding sources to achieve a total vegetation treatment 
has worked well with recent new authorities, such as stewardship 
contracting and the Healthy Forests Restoration Act.
    Examples of integrated projects at the forest level include 
restoration of native species, provisions for T&E habitat, catastrophic 
event recovery, and suppression of insect epidemics. As part of the 
long-term recovery efforts implemented after Hurricanes Katrina and 
Rita in 2005, the agency integrated and aligned a wide range of 
programs (hazardous fuels, forest management, wildlife, and forest 
health) and tools (salvage timber sales, mechanical fuels treatments, 
stewardship contracts, prescribed burns, and wildlife habitat 
treatments) to achieve restoration of the native longleaf pine 
ecosystem, restore habitat for threatened and endangered species such 
as the Red-cockaded Woodpecker and Gopher Tortoise, reduced insect and 
disease risks, and protected adjacent communities.
    Question. The Forest Service is in the process of considering 
forest plan amendments that would determine how Canadian Lynx habitat 
is managed. As I understand it, in order to manage the Lynx habitat, 
precommercial thinning in critical habitat areas will be greatly 
reduced. Is this the case? How will the proposed amendments affect 
long-term forest health and productivity?
    Answer. The following information is specific to the Northern 
Rockies Lynx Amendment (NRLA) area, which includes several National 
Forests in Montana, Idaho and Wyoming, and one Forest in Utah. A final 
decision on these amendments was made on March 23, 2007. The vegetation 
management standards in the amendment do not apply to fuel treatments 
in the Wildland Urban Interface as defined by the Healthy Forest 
Restoration Act. Precommercial thinning within mapped lynx habitat 
(areas capable of supporting snowshoe hares) could occur on a total of 
about 135,000 acres over the next decade. There are an additional 
180,890 acres per decade available for precommercial thinning outside 
of lynx habitat in the NRLA area. A total of 314,870 acres are now 
available for thinning each decade. The historic average precommercial 
thinning within the NRLA area has been 193,530 acres per decade. 
Precommercial thinning may also be conducted for essential restoration 
activities for aspen, western white pine, and whitebark pine. 
Precommercial thinning may also be permitted elsewhere if new 
information indicates that long-term benefits exceed short-term adverse 
effects.
    The following information is specific to the Southern Rockies Lynx 
Amendment (SRLA) area, which includes several National Forests in 
Colorado and Wyoming. Public comments on the Draft Environmental Impact 
Statement for these amendments are being reviewed and considered. A 
final decision on these amendments is expected this fall.
    Effects of the amendments on forest health are difficult to 
quantify as many factors and values are involved, including very 
diverse forest plan management goals and objectives. Forest health and 
productivity for Canada lynx will be increased. Much management 
flexibility remains during the design of individual projects for land 
managers to respond to insect and disease outbreaks with silvicultural 
treatments, should that be desirable and feasible.
    Question. I am concerned that the multiple-use philosophy may be 
falling by the way-side in our National Forests. I understand that the 
Boulder Ranger District is in the process of holding public input 
sessions on limiting campfires, overnight camping, and shooting on 
parts of the forest. The community believes that the District is 
essentially hoping to close the forest off in certain areas to these 
activities. Similar closures have taken place in other forests in 
Colorado. Can you tell me why the Forest Service has moved toward 
limiting multiple use?
    Answer. Operating and managing recreation opportunities on National 
Forest System lands is authorized under the Organic Act of 1897 and has 
been further defined under many subsequent acts, such as the Multiple 
Use Sustained-Yield Act of 1960. The Forest Service is currently 
working under these authorities to identify a variety of sustainable 
uses to determine conditions which indicate a potential purpose and 
need for future action. This charge is particularly challenging on 
highly fragmented lands with high levels of recreation uses, such as 
the Arapaho Roosevelt National Forest (one of the highest in the 
Nation). The Boulder Ranger District, in particular, is reviewing its 
past implementation of dispersed camping, campfires and recreational 
shooting as these are the uses that cause the most conflict between 
users and adjacent private homeowners, and between visitors expecting 
different settings and experiences. Involvement of the local public, 
surrounding communities and each national forest's recreation visitors 
will continue to remain a critical and essential component of this 
process to respond to public needs and ensure that a variety of 
multiple uses are available to the American people on our national 
forests, while ensuring sustainable management of the land, protection 
of private property and the safety of those visiting.
    Question. I ask this question in light of the fact that my office 
has received several phone calls from constituents who claim that they 
have had agreements for years--sometimes decades--and are abruptly 
being told that their access road is closing and they will not have 
access to their property. What process does the Forest Service use to 
close a road and is this process dictated by agency policy or statute?
    Answer. Current authorities provided through each year's 
appropriations act allows for the use of road maintenance funds for 
decommissioning roads, including unauthorized roads not part of the 
transportation system, and that no funds be expended to decommission 
any system road until notice and an opportunity for public comment has 
been provided on each decommissioning project. Changes to the existing 
use (open road to closed road or vice versa) on Forest Service system 
roads also require notice and an opportunity for public comment. In 
2001, the Forest Service implemented the Road Analysis Process (RAP) to 
utilize a science-based method of determining the minimum road system 
needed for managing lands under Forest Service jurisdiction. 
Implementation of this policy utilizes the input from interested 
citizens, other State and Federal agencies and tribal governments. The 
Forest Service is also implementing the Travel Management Rule which 
will determine the portion of the Forest Service road system that will 
be available for motorized use. Public involvement is being utilized 
for the implementation of this regulation.
    Question. After passage of the Ditch Bill the agency set a goal to 
have all Ditch Bill easements issued within four years. It is my 
understanding that, with the level of funding requested this year that 
goal might not be met. Can you please tell me if the agency is still on 
track to meet that goal? If not, what can be done to ensure that the 
goal is met?
    Answer. In June 2004, the Forest Service issued direction for the 
consistent and timely processing of the remaining 1,800 Ditch Bill 
applications by the end of fiscal year 2008. The agency expects to 
complete 1,200 (two-thirds) of these cases by October 2008. The 
processing of the remaining Ditch Bill applications is a high priority. 
Although completion of the remaining applications is very near, many of 
the remaining Ditch Bill cases are complex, involving Endangered 
Species Act consultations and the need for additional information from 
applicants. Often, these complex situations require more time and 
attention to resolve.
    Question. With regard to the aspen die-off happening around the 
State of Colorado. We have several sawmills in Colorado that depend 
heavily on aspen sales from the national forests; can you increase the 
volume of aspen sales to regenerate young, thrifty aspen stands? Please 
tell me what--if anything--the Forest Service is doing to determine the 
reasons for these die-offs and what can be done about it.
    Answer. The Region 2 Forest Health Management Staff has initiated a 
study, in cooperation with the San Juan and Grand Mesa-Uncompahgre-
Gunnison National Forests and the Rocky Mountain Research Station, to 
better understand the causes and extent of recent accelerated mortality 
of aspen. Results of the study will include management recommendations. 
In addition, the Region 2 Forest Health Management Staff and 
cooperators are assessing the expanse of the problem across Colorado, 
and in adjoining States. We know from the 2006 aerial survey data that 
over 140,000 acres of recent aspen mortality were documented in the 
State of Colorado alone.
    Our current plan for aspen treatments ranges from 500-1,000 acres 
each year. This generates 10,000-20,000 CCF (5-10 million board feet) 
of aspen sawlogs and other products.
    Question. Can anything be done to mitigate these losses? Do you 
need additional authorities to take action?
    Answer. Regeneration of aspen is key. Our observations indicate 
that some aspen stands are regenerating beneath a recently dead 
overstory, other aspen stands are not regenerating. One of the aspects 
of the study is to determine the condition of root systems. If the 
aspen root system is dead, no amount of prescribed burning or harvest 
will be successful in regenerating the aspen. The mortality trigger was 
likely drought. With recent years of increased moisture, it has been 
hypothesized that the stands/clones will recover. However, stands 
already seriously impacted by disease cankers, wood borers and aspen 
bark beetles will continue to decline.
    At this time we do not need additional authorities to take action.
    I believe that Forest Service staff on-the-ground in Colorado are 
working hard, and we appreciate the funding that was shuffled last 
month, but the final fiscal year 2007 timber and fuels program funding 
is still less than the national forests in Colorado need to address the 
bark beetle epidemics.
    Question. Please provide me with the percentage and dollar amounts 
of the total funding that was appropriated for the purposes of Fire 
Preparedness and Fire Suppression that actually ``reach the ground?'' 
By ``reach the ground'' I mean the amount that is actually used at the 
lowest level to fund temporary hires, permanent positions, purchase 
equipment, let contracts, etc to deal with the upcoming fire season.
    Answer.
    Fire Preparedness.--The Forest Service has $665 million of 
Appropriated Fire Preparedness funds for fiscal year 2007. Sixty 
percent or $397 million will be available to fund firefighting 
capability and operations including temporary hires, permanent 
positions, purchase equipment, dispatchers, and contracting resources.
    Fire Suppression.--The Forest Service has $741 million of 
Appropriated Fire Suppression funds for fiscal year 2007. Seventy one 
percent or $523 million are available to fund temporary hires, 
permanent positions, purchase equipment, contracts, etc. for the 
upcoming fire season. The funds are available on an as needed basis.
    Question. Please provide nation-wide information, as well as 
numbers specifically relating to my home State of Colorado.
    Answer.
    Fire Preparedness.--The Forest Service has $665 million of 
Appropriated Fire Preparedness funds for fiscal year 2007.
    Within the State of Colorado, the Forest Service will spend 
approximately $13.7 million on Preparedness capability and operations.
    Fire Suppression.--The Forest Service has $741 million of 
Appropriated Fire Suppression funds for fiscal year 2007.
    Through mid June 2007 the Forest Service has expended approximately 
$215,000 of Fire Suppression funds in Colorado.

                         CONCLUSION OF HEARINGS

    Senator Feinstein. Thank you all very much. The 
subcommittee will stand in recess subject to the call of the 
Chair.
    [Whereupon, at 11:13 a.m., Tuesday, May 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
